<html>
<title> - NOMINATIONS OF ARDEN L. BEMENT, JR. TO BE DIRECTOR OF THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY AND ROBERT DAVID PAULISON TO BE ADMINISTRATOR OF THE FIRE ADMINISTRATION AT THE FEDERAL EMERGENCY MANAGEMENT AGENCY</title>
<body><pre>[Senate Hearing 107-967]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 107-967
 
         NOMINATIONS OF ARDEN L. BEMENT, JR. TO BE DIRECTOR OF THE
             NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY AND 
           ROBERT DAVID PAULISON TO BE ADMINISTRATOR OF THE FIRE 
          ADMINISTRATION AT THE FEDERAL EMERGENCY MANAGEMENT AGENCY 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
87-380 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman

DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON, SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 1, 2001.................................     1
Statement of Senator Nelson......................................     3
Statement of Senator Wyden.......................................     1

                               Witnesses

Bement, Arden L., Jr., Nominee to be Director, National Institute 
  of Standards aand Technology, U.S. Department of Commerce......     8
    Prepared Statement...........................................    10
    Biographical Information.....................................    11
Morella, Hon. Constance A., U.S. Representative from Maryland....     6
Paulison, R. David, Nominated to be Administrator, Fire 
  Administration, Federal Emergency Management Agency............    24
    Prepared Statement...........................................    26
    Biographical Information.....................................    29

                                Appendix

Response by Arden L. Bement, Jr. to written questions submitted 
  by Hon. John McCain............................................    45
Response by Arden L. Bement, Jr. to written questions submitted 
  by Hon. George Allen...........................................    47
Response by R. David Paulison to written questions submitted by 
  Hon. John McCain...............................................    47
Response by Arden L. Bement, Jr. to written questions submitted 
  by Hon. George Allen...........................................    49
Bement, Jr., Arden L., NIST Director, letter dated March 1, 2002, 
  to Senator Wyden...............................................    51


  NOMINATIONS OF ARDEN L. BEMENT, JR. TO BE DIRECTOR OF THE NATIONAL 
                      INSTITUTE OF STANDARDS AND 
 TECHNOLOGY AND ROBERT DAVID PAULISON TO BE ADMINISTRATOR OF THE FIRE 
       ADMINISTRATION AT THE FEDERAL EMERGENCY MANAGEMENT AGENCY

                              ----------                              


                       THURSDAY, NOVEMBER 1, 2001

                               U.S. Senate,
         Committee on Commerce, Science, and Transportation
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The Committee will come to order.
    Today the Committee will hold a hearing on the nominations 
of Chief R. David Paulison to be U.S. Fire Administrator and 
Dr. Arden Bement to be Director of the National Institute of 
Standards and Technology. Each of these individuals, I believe, 
will be confirmed, because they are very qualified and are 
going to play a critical role in our war against terrorism.
    Obviously, science is getting increasingly important as it 
relates to America's national security. Since the attacks on 
September 11th and the anthrax scares of the past several 
weeks, it is clear that our science and technology can, in 
fact, be used against us. During the first days of the crisis, 
some news organizations were reporting that anthrax from 
American labs was actually sent to Iraq in the 1980's as part 
of a scientific effort. Although the report did not mention 
government involvement in such an effort, the inherent risks 
are unmistakable.
    It is our view that intellectual security needs to be part 
of any national security approach and, given the possibilities 
of the misuse of science, there is tremendous potential in 
harnessing science and technology in an affirmative and 
protective way. That can include everything from developing the 
technology to safely land airplanes from a control tower 
instead of a cockpit to using science to quickly create 
antidotes and vaccines to potential bioterrorism agents.
    Clearly, taxpayer funds, smartly invested in scientific 
advances, ultimately reward and benefit the safety and peace of 
mind of all citizens.
    This Committee is acutely aware that information technology 
and scientific information such as that developed at NIST is 
critical to combatting terrorism. We look forward to working 
with the Bush Administration in a bipartisan way.
    I think it is also worth noting that, no matter how good 
your technology and science are, it always comes down to 
people. That is why it is so important that we work closely 
with our nominees and evaluate their qualifications today. The 
people on the front lines responding to domestic incidents from 
biological to conventional attacks will be our nation's 
firefighters, and we look forward to having you represent them, 
Chief Paulison.
    The Subcommittee on Science, Technology, and Space has 
recently held a hearing on the needs of the Fire Service in 
responding to terrorism. This country has more than a million 
firefighters, and the federal government must be a better 
partner in working to ensure that these dedicated and 
courageous Americans have the tools to do their jobs.
    Towards that end, several weeks ago I called Mitch Daniels, 
the Director of the Office of Management and Budget, to ask 
that he make supplemental funding available immediately from 
the grants that are available under the Firefighter Investment 
and Response statute so that local fire departments can get the 
needed training and equipment that is so essential.
    Chief Paulison has been tapped to lead FEMA's U.S. Fire 
Administration and be the firefighters' voice within the 
federal government. He brings a very strong background to this 
position. We are going to talk some more about that background 
in a moment.
    Chief, we know you brought several members of your family 
with you today, and we would very much like you to introduce 
them and have them stand at this time.
    Mr. Paulison. Thank you, Mr. Chairman. I brought my wife 
with me, Kathy, who has been my supporter for the last 30 
years. Kathy, would you stand up.
    Senator Wyden. Welcome.
    All right, Chief. We will have some more to say about your 
background here in a bit.
    Also our good fortune to have Dr. Bement here, who has been 
nominated to direct NIST, and we will consider his nomination 
as we consider Chief Paulison's. The Fire Administration and 
NIST have a long history of working together on building and 
fire research.
    At the urging of New York's Fire Department leaders who 
testified at our hearing on the needs of the Fire Service, I 
have written to Secretary of Commerce Don Evans to ask that 
NIST begin to look at developing standards for firefighting 
equipment. One of the concerns that the Subcommittee has heard 
is that as equipment becomes more technologically sophisticated 
small departments have only the claims of the manufacturer to 
use in evaluating essential products.
    Currently NIST's Office of Law Enforcement Standards has 
measures for low enforcement equipment such as bulletproof 
vests. The Subcommittee is interested in working with the 
agency to see that effort expanded to include firefighters' 
equipment as well.
    In addition, NIST is one of the nation's premier 
laboratories. We want to congratulate the scientists both at 
NIST and NIST-supported scientists who shared in the Nobel 
Prize for Physics in 2001, and we are going to be discussing 
with Dr. Bement some of the priorities that he will have at the 
agency.
    With that, I really would like to recognize my colleagues 
because I know their schedule is very tight. But Dr. Bement, 
before we do that I understand you have some family here as 
well, and we would like you to have a chance to introduce them.
    Dr. Bement. Thank you, Senator. I have with me this 
afternoon my son David, who is at the Applied Physics Lab at 
Johns Hopkins University, his wife Deedee, and my grandchildren 
Charlene, Samantha, and Stephanie. I am pleased that they are 
here with me today.
    Senator Wyden. We are glad you are out in force, and we 
will have some more to say about your distinguished background, 
Dr. Bement. I enjoyed our visit yesterday, as chaotic as it 
was, given the fact that we were standing up in the Capitol 
basement looking for space.
    We do want to recognize Senator Nelson. He has been a great 
addition to this Subcommittee and brings to this Committee 
expertise in areas such as space and insurance and a whole host 
of areas. Senator Nelson, welcome. Please go ahead with your 
introduction.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, if Mrs. Morella is 
particularly pressed for time I would defer to her. So it is at 
her pleasure and at your pleasure.
    Congresswoman Morella. It would be my pleasure, Senator 
Nelson, that you proceed. Thank you.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Wyden. Peace reigns.
    [Laughter.]
    Senator Nelson. I had the good fortune, Mr. Chairman, of 
being Chairman of a subcommittee of which Ms. Morella was a 
part, and she was an outstanding member. A lot of her interest 
in science and technology goes back to those days when we were 
first put on that Committee in the House.
    Well, I am here for a friend of mine, David Paulison. He is 
a friend whose services are going to be enjoyed in the federal 
government, particularly in something that, as we approach the 
threat of terrorism, we cannot afford to have less than the 
best. Fortunately, in Chief Paulison, we have the best.
    I had the opportunity to observe him from my capacity as 
the State Fire Marshal for Florida. That is a job that a lot of 
the officials in the past never have paid much attention to, 
because the job is a lot more than that. It is the 
constitutional job of the State Treasurer. It is the job that 
really absorbs all the time and energy of insurance 
commissioner.
    I loved being State Fire Marshal. I learned a lot. I loved 
the title ``Marshal Nelson.''
    [Laughter.]
    As you can imagine, in that capacity I got to work with 
David in his current position as the Chief of the Miami-Dade 
Fire and Rescue Department. In 30 years of his dedicated public 
service, he rose from the rank of a rescue firefighter to fire 
chief. He directs all of the emergency management for Dade 
County. He oversees 1900 personnel, a $200 million operating 
budget, and a $70 million capital budget.
    His distinguished service on behalf of Miami-Dade County 
and the state of Florida has caused his expertise to be sought 
out around the country and now by our federal government. He is 
Past President of the International Association of Fire Chiefs, 
and he is currently a member of the Board of Directors of the 
American Red Cross. In each of those positions, he has served 
with distinction and admirably.
    So now, as the head of the U.S. Fire Administration, he is 
going to serve us in an additional capacity.
    I wanted to come and say those personal comments about him. 
I think it is important for Members of Congress to do that when 
they know and can testify as to the character and expertise of 
an individual. I also want to be joined by my colleague Bob 
Graham, who is in an Intelligence Committee meeting right now 
and who has submitted a letter endorsing Chief Paulison.
    Senator Wyden. Without objection, we will put that into the 
record at this time.
    [The material referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7380.001
    
    Senator Nelson. Thank you, Mr. Chairman.
    I am going to leave, with your permission, so that I can 
tend to some other things having to do with all kinds of nasty 
guys trying to do bad things and us trying to prevent them.
    Senator Wyden. We appreciate your coming and, in spite of 
your desire to be called ``Marshal,'' I am glad they call you 
``Senator.'' Senator Nelson. I can assure you it is a great 
privilege, and one of the great privileges is having the 
opportunity to work with folks like you.
    Senator Wyden. I thank my friend, and we will excuse you at 
this time.
    Congresswoman Morella. Whoever said there is not 
camaraderie among Members of Congress?
    Senator Wyden. Why do we not hear next from Congresswoman 
Morella. Suffice it to say, having had a chance to work with 
you, Connie, during my career in the House, it is just great to 
have you. You are constantly on the side of trying to practice 
good government out there and bring people together. We really 
appreciate your coming, and we will make your prepared remarks 
part of the record in full, and you may proceed in any way that 
you feel comfortable.

            STATEMENT OF HON. CONSTANCE A. MORELLA, 
               U.S. REPRESENTATIVE FROM MARYLAND

    Congresswoman Morella. Thank you very much. Thank you, 
Chairman Wyden. It is a privilege to be here and it is a 
privilege to have you chairing this Committee because you and I 
have worked together very well, and I have followed your career 
over in the Senate and you have continued to be the voice of 
moderation and good government. So thank you for that 
opportunity.
    It was interesting to also have Senator Nelson here, too, 
who also was my colleague in the House.
    Also, I feel privileged, Chief Paulison, to be able to have 
heard Senator Nelson's introduction of you, and I must say I am 
very pleased that you have been chosen for the U.S. Fire 
Administration Chief.
    Well, I am here today to introduce Dr. Arden Bement, who is 
the designee for Director of the national Institute of 
Standards and Technology. As you know, NIST is dear to my 
heart, a major laboratory in Gaithersburg, Maryland. There is 
one also in Boulder, Colorado. I will be very pleased if its 
direction were left in Dr. Bement's capable hands.
    As an engineer by training, Dr. Bement has a long and a 
distinguished career in both science and public service, 
holding numerous positions in government, industry, and 
academia. Currently he serves Purdue University as a chaired 
professor and head of the School of Nuclear Engineering at that 
institution.
    I found it very interesting to note that Dr. Bement is a 
proponent of more women in nuclear engineering and he has been 
actively trying to increase female enrollment at Purdue. 
Currently, female enrollment is about 20 percent. That is a 
pretty distinguished percentage and he would like to see it 
doubled in the next 2 to 3 years and has certainly contributed 
to that goal.
    In the past he has worked in the Department of Defense, he 
has sat on the national Science Board, overseeing the national 
Science Foundation, consulted for the DOE's national 
laboratories, served on an advisory Committee to NASA. More to 
the point, he has been advising NIST in a variety of capacities 
continuously for the last 20 years. He currently chairs the 
Advisory Committee for the Advanced Technology Program at NIST, 
has been a vocal proponent for the continuation of this highly 
successful and important program.
    Dr. Bement would be taking over at a very auspicious time 
for NIST. The Institute has recently celebrated its one 
hundredth anniversary, the oldest national laboratory in the 
nation. But NIST is far from being a stodgy old laboratory. Its 
state of the art facilities boast numerous advanced 
laboratories and its scientific discoveries have remained on 
the forefront. As you mentioned, Mr. Chairman, two Nobel Prizes 
in Physics have been awarded to NIST scientists in the last 5 
years, one most recently.
    Modern, cutting edge laboratories have recently been 
commissioned. Others are in mid-construction. It remains the 
premier institution for standards in this country and its work 
in the area is unparalleled.
    Nevertheless, retaining the standards of excellence that 
have come to be associated with NIST will require strong, bold, 
effective leadership, and I am confident that Dr. Bement is 
just the man to provide it. His experience with government is 
extensive. He knows NIST inside and out. He has worked in both 
industry, academia, understands their needs and the importance 
of collaborations and partnerships.
    He has fresh ideas to lead the Institute into its second 
century and position it to solve tomorrow's problems today. I 
hope that he will be quickly confirmed.
    I also note it is important, I think, when we nominate 
people for very important positions to look at their well- 
roundedness, and I would say that Dr. Bement is a Renaissance 
man. He loves the opera. As a matter of fact, he is an honorary 
member of the Cleveland Opera Board.
    I did want you to note also in his introduction of his son 
and his daughter-in-law and 3 of his grandchildren that this 
man has 9--has 8 children, but he has 24 grandchildren. So he 
really cares about the future.
    Senator Wyden. He is almost up to you.
    Congresswoman Morella. I know. That is why I started to say 
nine.
    But I have one more than he has, but he has got more 
grandchildren.
    But I am just very honored to speak in support of this 
wonderful nominee and this great, great nomination for the 
country. As Shakespeare would have said, or did say: ``The 
force of his own merit makes his way.''
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Congresswoman Morella. He is 
really lucky to have you in his corner. That was an excellent 
presentation. As you know, I have watched you work on NIST 
issues over the years and you are really one of the people we 
look to for guidance on these issues. So we are pleased that 
you could come.
    Connie, my sense is we ought to excuse you unless you want 
to add anything further.
    Congresswoman Morella. Thank you. Thank you very much.
    Senator Wyden. Thanks for coming.
    Congresswoman Morella. Thank you.
    [The prepared statement of Representative Morella follows:]
     Prepared Statement of Hon. Connie Morella, U.S. Congresswoman 
                             from Maryland
    Chairman Wyden, Senator Nelson, and Members of the Committee, it is 
with great pleasure that I am here to introduce Dr. Arden Bement Jr., 
the designee for Director of the National Institute of Standards and 
Technology. As you may know, NIST is very near to my heart, and I would 
be pleased if its direction were left in Dr. Bement's capable hands.
    An engineer by training, Dr. Bement has had a long and 
distinguished career in both science and public service, holding 
numerous positions in government, industry, and academia. Currently, he 
serves Purdue University as a chaired professor and Head of the School 
of Nuclear Engineering at that institution. In the past he has worked 
in the Department of Defense, sat on the National Science Board 
overseeing NSF, consulted for the DOE's national laboratories, and 
served on advisory committees to NASA. More to the point, he has been 
advising NIST in a variety of capacities continuously for the past 20 
years. He currently chairs the Advisory Committee for the Advanced 
Technology Program at NIST and has been a vocal proponent for the 
continuation of this highly successful and important program.
    Dr. Bement would be taking over at an auspicious time for NIST. The 
institute has recently celebrated its 100th anniversary, but NIST is 
far from a stodgy, old laboratory. Its state-of-the-art facilities 
boast numerous advanced laboratories and its scientific discoveries 
have remained on the forefront. Two Nobel Prizes in Physics have been 
awarded to NIST scientists in the last 5 years. Modern, cutting edge 
laboratories have recently been commissioned and others are in mid-
construction. It remains the premier institution for standards in this 
country and its work in this area is unparalleled.
    Nevertheless, retaining the standards of excellence that have come 
to be associated with NIST will require strong, bold, effective 
leadership. I am confident Dr. Bement is just the man to provide it. 
His experience with government is extensive and he knows NIST inside 
and out. He has worked in both industry and academia, and understands 
their needs and the importance of collaborations and partnerships. He 
has been a leader encouraging the next generation of scientists and 
engineering, particularly among women and other underrepresented 
groups. He has fresh ideas and a proven track record. I believe he is 
supremely qualified to lead the institute into its second century and 
position it to solve tomorrow's problems today. I hope you will confirm 
him quickly. Thank you.

    Senator Wyden. All right, we are ready now for our 
witnesses. Dr. Bement, why do you not begin. In fact, first 
we'll have your presentation, then we will hear from Mr. 
Paulison, and finally I will have questions for each of you. 
Welcome to both of you. We will make your prepared remarks a 
part of the record in full, and if you would like to just 
highlight some of your major concerns that would be helpful.

      STATEMENT OF ARDEN L. BEMENT, JR., NOMINATED TO BE 
 DIRECTOR OF THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Bement. Thank you very much, Mr. Chairman.
    I would first like to start by thanking Congresswoman 
Morella for her wonderful introduction. I am very much mindful 
of her wonderful record on the House Science Committee, her 
work in women's rights, and also in civil service reform. She 
has been a steadfast supporter of NIST and she has many 
grateful constituents at NIST. I am honored to join her list of 
grateful constituents if confirmed.
    She also made it possible for me to skip down in my opening 
remarks, since she covered my background more than generously. 
I am very much honored to add this capstone to my life's work, 
being Director of NIST. I will devote all my energies and 
experiences to leading NIST to the next level of achievement. 
In that respect, I am very honored to be nominated by the 
President and also wish to thank Secretary Evans and Deputy 
Secretary Bodman for recommending me to this position.
    I believe that NIST continues to be a young organization 
which has the ability not only to think out of the box 
fundamentally, but also out of the Beltway in its outreach. It 
has sustained this ability through its extended networks and 
active collaborations with industry, academia, and other 
government agencies, and its longstanding practice of 
recruiting top graduates from universities to its intern 
programs.
    NIST also has a tradition of adapting to changing 
environments through its focus on constituent needs. This 
ability to remain at the cutting edge through continuing 
interaction is not only demonstrated by the many prestigious 
prizes won by NIST scientists and engineers, but also the 
prizes won by others that NIST has enabled. I consider it a 
great privilege to be associated with an Institute that now has 
two Nobel laureates.
    Finally, the credibility of NIST as an independent 
standards and technology institute in the service of the nation 
I regard as paramount. NIST has served the nation well as an 
unbiased arbiter and standard-setter in matters related to 
public safety and commerce and as an honest broker in promoting 
national technology leadership and in strengthening small 
manufacturers through advanced technologies. In my advisory 
roles with NIST I have found that independent assessment 
studies regularly show that the returns to the public from 
investments in NIST's programs are very high.
    If confirmed, I will focus on the following objectives: 
First, adding strategic vision and direction to important NIST 
programs that have high importance to the nation, such as those 
NIST technologies that support homeland security.
    Second, strengthening the momentum achieved by former 
directors Prabhakar and Kammer in supporting national standard-
setting organizations to improve their influence on 
international standard-setting processes.
    Third, being a good steward in maintaining the world-class 
capabilities of NIST's aging infrastructure. In this regard, I 
wish to thank the Committee for providing the funding for the 
Advanced Chemical Sciences Laboratory, the Advanced 
Measurements Laboratory, and for providing initial funding to 
begin needed upgrades to the Boulder laboratories. These 
additions are coming on none too soon to address advances in 
quantum computing, nanoscale devices and sensors, and DNA 
diagnostic and analysis chips, among many other exciting 
technological advances.
    I hope that Members of the Committee will visit the 
Advanced Measurements Laboratory when it is completed and will 
continue to support our need for upgrades to the Boulder 
laboratories.
    My fourth goal is to provide stability to the advanced 
technology program, improve the impact of the manufacturing 
extensions program, and facilitating the extension of the 
Baldrige national Award program to health care an educational 
institutions.
    In closing, I regret that I have not had the opportunity to 
meet more Members of the Committee prior to this hearing and I 
pledge if confirmed I will seek your views and also seek to 
meet the other Members and discuss with them important issues 
facing NIST and its mission.
    Finally, I wish to thank my wife, family and colleagues at 
Purdue University for their support during these past 3 months 
leading to this hearing. There is much to be proud of these 
days in being an American and I am especially proud to be able 
to serve our great country in this role.
    I would be more than pleased to receive your questions.
    [The prepared statement and biographical information of Dr. 
Bement follow:]
  Prepared Statement of Arden L. Bement, Jr., Nominee to be Director, 
  National Institute of Standards and Technology, U.S. Department of 
                                Commerce
    Mr. Chairman, Senator McCain and members of the Committee:
    I wish to thank you for the opportunity to appear before you today 
regarding my nomination to be Director of the National Institute of 
Standards and Technology. I am honored to be nominated to this position 
by President Bush and wish to thank Secretary Evans for recommending me 
for this position.
    My professional career has included responsible positions directing 
research and technology in government, industry and academia. These 
positions have included Deputy Under Secretary of Defense for Research 
and Engineering, Director of the Office of Materials Science of DARPA, 
Member of the National Science Board, Vice President of Science and 
Technology for TRW and professorships at both MIT and Purdue 
University. As I look back over my career it seems that all of my past 
work has prepared me for this opportunity of leading NIST into the 
twenty-first century. If confirmed, I will be greatly honored to add 
this capstone to my life's work and will devote all of my energies and 
experiences to leading NIST to the next level of achievement.
    I have had the privilege of serving NIST continuously in a variety 
of advisory appointments over the past 20 years. These have included 
membership on the NRC Board of Assessment, as Chairman of the NBS 
Statutory Advisory Committee and the successor Visiting Committee for 
Advanced Technology, as a member of the Board of Overseers for the 
Baldrige National Quality Award Program, and as Chairman of the 
Advanced Technology Program Advisory Committee. In these capacities I 
have witnessed NIST grow in excellence and scope during the tenure of 
four of its eleven former directors.
    I believe that NIST continues to be a young organization, which has 
the ability not only to think ``out of the box'' fundamentally but also 
``out of the beltway'' in its outreach. It has sustained this ability 
through its extended networks and active collaborations with industry, 
academia and other government agencies and its longstanding practice of 
recruiting top graduates from universities through its postdoctoral 
programs. NIST also has the tradition of adapting to changing 
environments through its focus on constituent needs. This ability to 
remain at the cutting edge through continuing interaction is not only 
demonstrated by the many prestigious prizes won by NIST scientists and 
engineers but also the prizes won by others based on NIST advances in 
science and technology. I consider it a great privilege to be 
associated with an institution that now has two Nobel Laureates.
    Finally, the credibility of NIST as an independent standards and 
technology institute in the service of the nation I regard as 
paramount. NIST has served the nation well as an unbiased arbiter and 
partner in developing standards in matters related to public safety and 
commerce and as an ``honest broker'' in promoting national technology 
leadership and in strengthening small manufacturers through advanced 
technologies. In my advisory roles I have found that independent 
assessment studies regularly show that the returns to the public from 
investments in NIST programs are very high.
    If confirmed I will focus on the following objectives:
    1. Adding strategic vision and direction to important NIST programs 
that have high importance to the nation, such as those NIST 
technologies that support homeland security.
    2. Strengthening the momentum achieved by former directors 
Prabhakar and Kammer in supporting national standards developing 
organizations to improve their influence on international standards to 
promote American interests.
    3. Being a good steward in maintaining the world-class capability 
of NIST's aging infrastructure. In this regard I wish to thank the 
committee for providing the funding for the Advanced Chemical Sciences 
Laboratory and the Advanced Measurement Laboratory, and for providing 
initial funding to begin needed upgrades to the Boulder Laboratories. 
These additions are coming on line none too soon to address advances in 
quantum computing, nanoscale devices and sensors, and DNA diagnostic 
technologies, among many other exciting technological advances. I hope 
that members of the committee will visit the Advanced Measurement 
Laboratory when it is completed, and will support our continuing need 
for upgrades to the Boulder Laboratories.
    4. Providing stability to the Advanced Technology Program, 
improving the impact of the Manufacturing Extension Program, and 
facilitating the extension of the Baldrige National Award Program to 
health care and educational institutions.
    In closing, I regret that I have not had the opportunity to meet 
with more members of the committee and their staff directors prior to 
this hearing. I pledge that if confirmed I will seek your views on the 
important issues facing NIST and its mission.
    Finally, I wish to thank my wife, family, and colleagues at Purdue 
University for their support during the past 3 months leading to this 
hearing. There is much to be proud of these days in being an American, 
and I am especially proud to be able to serve our great country in this 
role.
                                 ______
                                 
                      a. biographical information
    1. Name: Arden L. Bement, Jr.
    2. Position to which nominated: Director, National Institute of 
Standards and Technology, Department of Commerce.
    3. Date of nomination: N/A.
    4. Address: (Information not released to the public).
    5. Date and place of birth: May 22, 1932, Pittsburgh, Pennsylvania.
    6. Marital status: Married to Louise C. (nee: Capestrain) Bement.
    7. Names and ages of children: Kristine Marie Clayton (DOB: 6/15/
53) 48 years old; Kenneth James Bement (DOB: 10/2/54) 46 years old; 
Vincent Lloyd Bement (DOB: 9/4/56) 45 years old; Cynthia Ann Smart 
(DOB: 3/19/58) 43 years old; Mark Francis Bement (DOB: 9/17/59) 42 
years old; David Alan Bement (DOB: 5/7/61) 40 years old; Paul Andre 
Bement (DOB: 8/19/63) 38 years old; Mary Loretta Swope (DOB: 2/1/65) 36 
years old; Kim Kellogg Smiley (DOB: 9/24/49) 52 years old; Robert Kevin 
Smiley (DOB: 5/18/54) 47 years old; Susanne Courtland Smiley (DOB: 2/
27/59) 42 years old.
    8. Education: Washington Junior High School, New Castle, PA 1944-
1947, Diploma, May 1947; New Castle High School, New Castle, PA 1947-
1949, Diploma, May 1949; Colorado School of Mines, Golden, CO 1950-
1954, E. Met., May 1954; University of Idaho, Moscow, ID 1956-1959, 
M.S., May 1959; University of Michigan, Ann Arbor, MI 1959-1963, Ph.D., 
May 1963.
    9. Employment record: 1954-1955: Research Metallurgist, Fuels 
Development Operation, Hanford Laboratory, Hanford Atomic Products 
Operation, General Electric Company, Richland, WA. Responsible for 
nuclear reactor fuel characterization and process design for the 
Hanford production reactors; 1955-1957: Reactor Project Engineer, 
Hanford Irradiation Processing Department, Hanford Atomic Products 
Operation, General Electric Company, Richland, WA. Responsible for the 
successful design, installation, and acceptance testing of reactor 
process instrumentation and process water chemical addition facilities; 
1957-1965: Senior Research Fellow, Metallurgy Research Operation, 
Hanford Laboratories, Hanford Atomic Products Operation, General 
Electric Company, Richland, WA. Responsible for basic investigations on 
the effects of nuclear radiation on the fundamental properties of 
reactor fuels and reactor structural materials; 1965-1968: Manager, 
Metallurgy Research Department, Battelle Northwest Laboratories, 
Richland, WA. Responsible for direction of the research and development 
activities of approximately 50 scientists, engineers and technicians in 
programs in metallurgy research and the effects of irradiation on the 
mechanical and physical properties of nuclear reactor fuels and 
structural materials. Coordinated the national USAEC program in 
Irradiation Effects in Reactor Structural Materials involving ten 
participating laboratories. Member of the U.S. Libby-Cockcroft Exchange 
on the Effects of Irradiation on Structural Materials and the USAEC 
Heavy Section Steel Technology Program; 1968-1970: Manager, Fuels and 
Materials Department, Battelle Northwest Laboratories, Richland, WA. 
Responsible for direction of the research and development activities of 
approximately 100 scientists, engineers and technicians in programs in 
metallurgical research, nuclear structural materials, defense weapons 
technologies, biomaterials, manufacturing technology, isotope power 
sources, and the design, fabrication, and irradiation testing of 
advanced nuclear fuel elements. Member of USAEC international 
technology exchange programs with the U.K., Canada, Japan, Sweden, 
Denmark, and Norway 1970-1976: Professor of Nuclear Materials, 
Massachusetts Institute of Technology, Cambridge, MA. Developed 
academic and research programs in support of advanced energy conversion 
technologies, fuel management and physical metallurgy. Supervised 
research programs in insitu radiation creep, proton scattering in 
solids, materials development for magnetohydrodynamic (MID) power 
systems, nuclear fusion' and fission reactor materials, and reactor 
safety. Served as a member of the U.S.-U.S.S.R. Bilaterial Exchange 
Program in MHD and as principal investigator for the MIT Fusion 
Technology Program. Was co-director of the MIT Summer Course in Reactor 
Safety; 1976-1979: Director, Materials Science Office, Defense Advanced 
Projects Agency, Department of Defense, Arlington, VA. Responsible for 
sponsored research programs in structural, optical and electronic 
materials for advanced defense systems. Supervised five project 
managers in major programs in advanced materials, fiber-optic sensors, 
compound semiconductors, very-large-scale integrated circuits, laser 
optics, and advanced armor and anti-armor materials; 1979-1980: Deputy 
Under Secretary of Defense for Research and Engineering, Department of 
Defense, The Pentagon, Washington, DC. Responsible for overall 
management of the science and, technology programs of the Department of 
Defense to include the OSD program offices for directed-energy weapons 
and very-high-speed integrated circuits (VHSIC). Was also responsible 
for related activities, such as the Manufacturing Technology Program 
and the monitoring of Defense Federal Contract Research Centers, the 
Independent Research and Development Program, and the Small Business 
Innovation Research (SBIR) Program. These programs had an aggregate 
budget of more than three billion dollars. Served as DOD Principal on 
the OSTP Federal Coordinating Council on Science, Engineering and 
Technology and the Committee on International Science, Engineering and 
Technology. Also, was the principal DOD representative on the Technical 
Cooperation Program (TTCP), the Synthetic Fuels Task Force, and the 
NATO Defense Research Group; 1980-1988: Vice President for Technical 
Resources, TRW Inc., Cleveland, OH. Responsible for identifying and 
evaluating emerging technologies and for recommending product, 
material, and ` process development projects. Responsibilities included 
the development of special relationships with selected universities and 
the recruiting of key individuals in new technologies of interest to 
TRW; 1988-1992: Vice President for Science and Technology, TRW Inc., 
Cleveland, OH. Responsible for leading company wide programs in the 
acquisition and use of advanced technologies of high leverage for TRW 
businesses. Responsibilities included strategic technology planning, 
technology resource sharing, international technology alliances, 
university programs, technical consulting with business units, the 
company's purchasing function, information technology function, and 
environmental control and quality functions. Supported CEO leadership 
in the implementation of the Malcolm Baldridge National Quality Award 
criteria; 1992-1988: Basil Turner Distinguished Professor of 
Engineering, School of Materials Engineering and School of Electrical 
and Computer Engineering, Purdue University, West Lafayette, IN. 
Responsible for academic and research programs in high temperature 
superconductors and ferroelectric materials. Also, directed the Midwest 
Superconductivity Consortium of the USDOE, involving the collaborative 
research activities of six major Midwest research universities, to 
include R&D partnerships with 16 participating companies and federal 
laboratories; 1988: David A. Ross Distinguished Professor of Nuclear 
Engineering and Head, School of Nuclear Engineering, Purdue University, 
West Lafayette, IN. Responsible for a department of ten faculty 
members, 16 technical and administrative staff members; and over one 
hundred undergraduate and graduate students. The School conducts over 
six million dollars of research in two-phase flow, reactor safety, 
nuclear reactor simulation, nuclear' medicine, complex adaptive 
systems, and direct energy conversion.' Sponsors include DOE, NRC, US 
Navy, NASA, NSF, and industry.
    10. Government experience: 1968-1970: Councilman, city of Richland, 
WA; 1966-1969: Technical Coordinator, Irradiation Effects to Reactor 
Structural Materials Program, Division of Reactor Development and 
Technology, USAEC; 1967-1970: Member, Program Review Committee, Heavy 
Section Steel Technology Program, USAEC; 1968-1970: Member, Working 
Group on Fast Reactor Cladding, USAEC; 1970-1973: Member, Radiation 
Effects Subcommittee, Technology Committee, Division for Controlled 
Thermonuclear Reactors, USAEC; 1970-1976: Consultant, Advisory 
Committee for Reactor Safeguards, U.S. Nuclear Regulatory Commission; 
1972-1973: Technical Coordinator, MHD Materials Program, Office of Coal 
Research, USDOI; 1980-1986: Member, Advisory Panel to the Congressional 
Task Force on Technology Policy, Congressmen McKay and Packard, 
Cochairmen; 1980: Member, Study Committee for the Energy Research 
Advisory Board, USDOE and the Office of Technology Assessment on the 
Mission of Weapons Laboratories; 1980-1986: Member and Chairman, NIST 
Statutory Visiting Committee, USDOC; 1980-1986: Consultant; Defense 
Science Board, USDOC; 1989-1995: Member, National Science Board, 
National Science Foundation (served on the Program, Polar Research, 
Inspector General and Science and Engineering Indicators (chaired) 
Committees); 1992-1998: Member, Technology and Commercialization 
Advisory Committee, NASA; 1995-1998: Member, Space Station Utilization 
Advisory Subcommittee, NASA; 1998-1991: Member, Board of Overseers, 
Malcolm Baldridge National Quality Award Program, USDOC; 1996: 
Chairman, NSF Workshop on the Urban Infrastructure; 1994-1995: Member, 
Board of Assessment, state of Texas Research Fund; 1996-1997: Member, 
Board of Assessment, state of Ohio Instrumentation Program; 1996: 
Member, Advisory Committee for the Organization of the Air Force 
Laboratory, USAF; 1997-2001: Member, Visiting Committee for the 
Directorate for Social, Behavioral and Economic Sciences, NSF; 1998-
2001: Member and Chair, state of Nebraska Research Program Review 
Committee, University of Nebraska (1998-2001); 1999-2001 Member and 
Chairman, Advanced Technology Advisory Committee, NIST, USDOC.
    11. Business relationships (Corporate Directorships): Director, 
Keithley Instruments, Inc., Solon Ohio (1984-2001) Membership on Audit, 
Strategy, and Compensation Committees; Director, Lord Corporation, Cary 
NC (1987-2001). Membership on Strategy, Human Relations, and 
Compensation Committees.
    Consulting Positions (Industry): Battelle Memorial Institute (1970-
1976); The Materials Property Council (1970-1983); Wah Chang Albany 
Corporation (1970-1973); Atomic Power Development Associates (1970); 
Babcock and Wilcox (1972); United Technologies Corporation (1980-1988); 
TRW (1990-1997); Lockheed Martin: Idaho Engineering and Environmental 
Laboratory (1999-2001); Member, Science Advisory Committee, AI Ware, 
Cleveland, Ohio (1984-1987); Chair, Exploratory Research Advisory 
Committee, Electric Power Research Institute (1990-1995); Member, 
Nuclear Operating Committees Commonwealth Edison Co. (1994-1998); 
Member, Advisory Committee for Strategic R&D, Electric Power Research 
Institute (1995); Member; Science Advisory' Committee, Oryx 
Technologies, Fremont CA (1990-1998); Member, Science Advisory 
Committee, Midwest Superconductivity, Inc., Lawrence KA (1996-1998); 
Member, Science and Technology Advisory Committee, Howmet International 
Corporation (1999-2001).
    Consulting/Advisory Positions (National Laboratories): Member, 
Visiting Committee, Materials Science Division, Argonne National 
Laboratory (1970-1973); Member and Chair, Visiting Committee, 
Metallurgy and Ceramics Division, Oak Ridge National Laboratory (1972-
1975); Member, Visiting Committee, Materials Technology Division, 
Lawrence Livermore National Laboratory (1974-1975); Member and Chair, 
Visiting Committee for the Materials Science and Technology Division, 
Los Alamos Scientific Laboratory (1996-1999); Member, Visiting 
Committee for the Chemical Technology Committee, Argonne National 
Laboratory (1998-2001); Member, Board of Overseers, Fermi National 
Accelerator Laboratory, University Research Association, Inc. (1999-
2001); Membership on Administration and Audit Committees of the Board.
    Consulting/Advisory Positions (Universities): Chair, Science 
Advisory Committee, Howard University (1981-1984); Chair, Advisory 
Committee for the School of Engineering, Cleveland State University 
(1982-1986); Member, National Advisory Committee to the School of 
Engineering, The University of Michigan (1980-1986); Member, Advisory 
Committee to the School of Engineering, The Ohio Sate University (1980-
1984); Member, Visiting Committees to the School of Engineering, MIT: 
Department of Aeronautics and Aerospace Engineering (1989-1992), 
Department of Materials Science and Engineering (1992-1995), Department 
of Mechanical Engineering (1995-1998); Member, Visiting Committee, 
Department of Nuclear Engineering, University of Wisconsin (1992-1995); 
Member, Advisory Committee for Engineering Center of Design, Carnegie 
Mellon University (1982-1984); Member, Advisory Committee, Case 
Institute of Technology; CWRU (1980-1985); Member, Steering Committee, 
Center for Integrated Design and Manufacturing, Purdue University 
(1981-1986); Member, Board of Visitors, Software Engineering Institute, 
Carnegie Mellon University (1983-1991); Member, Advisory Committee, 
University Technologies, Inc., Case Western Reserve University (1990-
1992); Member, Advisory Committee for the Establishment of a College of 
Engineering, Rowan College of New Jersey (1993-1994); Member, Advisory 
Committee, School of Engineering, University of California at Berkeley 
(1992-1998); Member, Advisory Committee for the Executive Course on 
Technology Policy, George Mason University (1994); Chair, Assessment 
Committee for the Institute for Advanced Technology, University of 
Texas, Austin (1996); Member, Assessment Committee for the Center for 
Electromechanics, University of Texas, Austin (1996); Member, Visiting 
Committee, Center for Risk Management, University of Virginia (1997-
1998); Member; Program Review Committee, Nuclear Engineering Program, 
University of Missouri, (1999); Member, Program Review Committee, 
Department of Materials Science and Engineering, The University of 
Michigan (2000); Member, Visiting Committee, Department of Materials 
Science and Engineering, Northwestern University (1999-2001).
    12. Membership: National Research Council: Member and Chairman, 
National Materials Advisory Board (1982-1986); Chairman, Commission for 
Engineering and Technical Systems (1986-1992); Member, Board on Science 
and Technology for International Development (1983-1984); Member, Board 
on Army Science and Technology (1984-1986); Member, Engineering 
Research Board (1984-1986); Member, Advisory Committee on Advances in 
Materials Research and Development (1985-1987); Co-Chairman, Steering 
Committee for Materials Science and Engineering Field Study (1985-
1989); Member, Committee on Space Policy (1987-1988); Member, NRC 
Finance Advisory Committee (1987-1988); Member, Committee on Key Issues 
in the Future Design and Implementation of U.S. National Security 
Export Controls (1989-1991); Member, NAS-Japan Study Committee for the 
Promotion of Science (1991); Member, Committee on International 
Intellectual Property Rights in Science and Technology (1991-1993); 
Member, NRC Board of Assessment of NBS Programs (1976-1980); Member, 
Committee on Materials for the 21st Century (1991-1992); Member, U.S. 
National Committee on Theoretical and Applied Mechanics (1989-1992); 
Chairman, Workshop on Research Progress Measurement and Management 
Decision Making (1992); Member, Corporate Council for Mathematics and 
Science Education Executive Committee (1992-1993); Chair, Project 
Guidance Group on Careers in Science and Engineering, Committee on 
Science; Engineering and Public Policy (1995-1996); Member, Board on 
Air Force Science and Technology (1996); Chair, Panel on International 
Benchmarking of U.S. Materials Science and Engineering Research (1997-
1998); Chair, Transportation Research Board Committee for the Review of 
the National Automated Highway System Consortium (1997-1998); Member, 
Report Review Committee (1998-2001); Member, Committee on Integration 
of Commercial and Military Manufacturing in 2010 and Beyond (2001).
    Community Service: Councilman, city of Richland WA (1968-1970); 
Founder and Commissioner, Benton-Franklin Regional Arts Commission, 
Benton and Franklin Counties, WA (1969-1970); Chairman, Boards of 
Public Health, Mental Health and Mental Retardation, Benton and 
Franklin Counties, WA (1969-1970); Member, Board for Community Action, 
U.S. Office of Economic Opportunity, Benton and Franklin Counties, WA 
(1969-1970); President, Allied Arts Council for the Mid-Columbia 
Region, Richland, WA (1968-1970); Member, Board of Trustees, Cleveland 
Opera Company (1980-1992); Member, Board of Trustees and Chair, 
Architectural Committee, Great Lakes Science Museum (1990-1992); 
Member, Steering Committee for Adventure Place, Akron, Ohio (1990-
1992); Member, Board of Trustees, Society for the Prevention of 
Violence, Cleveland, OH (1988-1992); Member, Steering Committee, 
Cleveland Advanced Manufacturing Program (1986-1992); Member, Lafayette 
Symphony Orchestra Board of Trustees, (1999-2001).
    International Activities: Member, U.S.-U.K. Libby Cockcroft 
Exchange on Irradiation Effects to Reactor Structural Materials (1966-
1969); Member, U.S.-Japan Exchange on Radiation Effects in Metals and 
Structural Materials (1968-1971); Member, U.S.-Scandinavian Exchange of 
Radiation Effects on Reactor Structural Materials (1968); Lecturer, 
Summer School on Radiation Effects in Matter, Romanian Institute for 
Atomic Physics (1971); Lecturer and Technical Advisor; Instituto 
Nacional de Energia Nuclear, Mexico (1971-1975); Technical Advisor, 
National Research Council, Taiwan (1973-1975); Member, U.S.-U.S.S.R. 
Bilateral Exchange on Magnetohydrodynamics (1973-1975); Member, USAID 
Mission to Thailand under the U.S.-Thailand Scientific Agreement 
(1983); Member, Special Committee to Assess Graduate Engineering 
Programs at the National University of Mexico (UNAM) (1996).
    13. Political affiliations and activities: (a) Councilman, city of 
Richland, WA (1968-1970): filled an unexpired term by vote of the 
council and was reelected unopposed. (b) None. (c). Life membership in 
the National Republican Committee, $750.00 in July, 2001.
    14. Honors and awards: Professional Society Fellowships: American 
Society of Chemists (1969), American Nuclear Society (1973), ASM 
International (1978).
    Leadership and Career Awards: Engineers Citation Award, University 
of California at Los Angeles (1985); Rackham Hall of Fame, The 
University of Michigan (1986); Doctorate Honorious Causa (Engineering), 
Cleveland Sate University (1989) Melville F. Coolbaugh Memorial Award, 
Colorado School of Mines (1991); Alumni Hall of Fame, University of 
Idaho (1991); Outstanding Alumnus Award, The University of Michigan 
Club of Cleveland (1992); Alumni Society Merit Award, College of 
Engineering, The University of Michigan (1993); National Materials 
Advancement Award, Federation of Materials Societies (1997); 
Distinguished Life Membership, ASM International (1998); Honorary 
Membership, American Ceramics Society (1999).
    Awards of Appreciation: U.S. Air Force Laboratories (1980); U.S. 
Department of Defense (1980); U.S. Department of Defense, for 
Outstanding Contributions to the Defense Equal Opportunity Program 
(1981); Federation of Materials Societies (1984); Cleveland State 
University (1985); National Institute for Standards and Technology 
(1991); Department of Commerce (1992); National Research Council 
(1992); Electric Power Research Institute (1993); Department of 
Commerce (1993, 1994, 1995, 1996).
    Performance Awards and Medals: Outstanding Performance Award, 
Defense Advanced Research Projects Agency (1977); Distinguished Federal 
Executive Award (1980); Distinguished Civilian Service Medal, U.S. 
Department of Defense (1980); Outstanding Service Award, Department of 
Commerce (1995);
    Lectureships and Commencement and Keynote Addresses: Keynote 
Speaker, Cleary Scientific and Schwartz Engineering Awards Banquet, 
U.S. Air Force Materials Laboratory (1980); Commencement Speaker, 
Gonzaga University (1984); Distinguished Lectureship in Materials and 
Society, ASM and ARVIE (1986); Regents Professorship; University of 
California at Los Angeles (1987); McBride Global Currents Lecturer, 
Case Western Reserve University (1987); Comencement Speaker, Cleveland 
State University (1987); Commencement Speaker, University of Idaho 
(1991).
    Biographical Listings: American Men and Women of Science, Marquis 
Who's Who in the World: In America, In the Midwest, In Science; Federal 
Staff Directory (1976-1982); Strathmore's Who's Who (1998-1999).
    15. Published writings: Books: A.R. Rosenfield, G.T. Hahn, A.L. 
Bement, Jr. and R.I. Jaffee, Dislocation Dynamics, McGraw Hill Book 
Company, NY (1968); D.G. Franklin, G.E. Lucas and A.L. Bement, Jr., 
Creep of Zirconium Alloy's in Nuclear Reactors, ASTM Spec. Tech. Publ. 
815, (1983).
    Monographs: A.L. Bement, Jr., ``Void Formation in Irradiated 
Austenitic Stainless Steels,'' Advances in Nucl. Sci. & Eng., 7, 
Academic Press; New York (1973).
    Book Contributions: A.L. Bement, Jr. and J.E. Irvin, ``Automatic 
Processing of Mechanical Properties Data,'' Computer Applications in 
Metallurgical Engineering, American Society for Metals, Metals Park, 
Ohio (1964); R.A. Oriani and A.L. Bement, Jr., ``Interstitial Phases 
and Solutions,'' Phase Stability in Metals and Alloys, McGraw-Hill, New 
York (1967); F.A. Smidt, 7r. and A.L. Bement, Jr. ``Thermally Activated 
Dislocation Motion and its Application to the Study of Radiation 
Damage,'' Dislocation Dynamics, McGraw-Hill, New York (1968); 
A.L.Bement, Jr., F.A. Smidt, Jr. and R.G. Hoagland, ``Fracture 
Mechanisms and Radiation Effects,'' Engieering Fundamentals and 
Environmental Effects, Vol. III, Fracture, An Advanced Treatise, edited 
by H. Liebowitz, Academic Press, New York (1969); A.L. Bement; Jr., 
``Biomaterials'', Encyclgpedia of Chemistry, Third Edition; C.A. Hampel 
and G.G. Hawley, eds., Van Nostrand Reinhold Co., New York (1973); A.L. 
Bement, Jr. and E.C. Van Reuth, ``Quo Vadis--RSR,'' Rapid 
Solidification Processing, Principles and Technolozies--II, Claitor's 
Publishing Division, Baton Rouge, LA (1980)
    Formal Reports of the Atomic Energy Commission: (1) A. L. Bement, 
Jr., ``The Influence of Uneven Quenching Rates on the Warping of 
Uranium Slugs,'' USAEC Formal Report HW-33651, Hanford Atomic Product 
Operations, General Electric, Co., Richland, WA (1954); (2) A. L. 
Bement, Jr., ``An Investigation of the Properties of Rolled Uranium 
Related to the Quench after Beta Heat Treatment,'' USAEC Formal Report 
HW-33726, Hanford Atomic Product Operations, General Electric Co., 
Richland, WA (1954); (3) A. L. Bement, Jr., ``A Comparison of Sonic and 
X-ray Orientation Data for Uranium Quenched at Different Rates from the 
Beta Phase,'' USAEC Formal Report HW-33937, Hanford Atomic Product 
Operations, General Electric Co., Richland; WA (1954); (4) A. L. 
Bement, Jr., ``The Presence and Removal of Hydrogen in Punched and 
Machined Uranium Washers,'' USAEC Formal Report HW-48293, Hanford 
Atomic Product Operations, General Electric Co., Richland, WA (1957); 
(5) A. L. Bement; Jr., and W. P. Wallace, ``A Martensitic Reaction of 
Uranium,'' USAEC Formal Report HW-51084, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1957); (6) A. L. 
Bement, Jr., and V. E. Kahle, ``Reaction Layers Formed by Leadbath and 
Salt-bath Heat Treatments of Uranium,'' USAEC Formal Report HW-52049, 
Hanford Atomic Product Operations, General Electric Co., Richland, WA 
(1957); (7) A. L. Bement, Jr., ``The Effects of Carbon Content on the 
Rate of Dissolution of Dinget Uranium in Nitric Acid,'' USAEC Formal 
Report HW-52430, Hanford Atomic Product Operations, General Electric 
Co., Richland, WA (1957); (8) A. L. Bement, Jr., and D. W. Rathbun, 
``Status Report on the Properties of Centrifugally Cast Uranium,'' 
USAEC Formal Report HW-53569, Hanford Atomic Product Operations, 
General Electric Co., Richland, WA (1958); (9) A. L. Bement, Jr., and 
V. E. Kahle, ``The Diffusion Layer Formed by Molten Lead Reaction with 
Uranium,'' USAEC Formal Report HW54628, Hanford Atomic Product 
Operations, General Electric Co., Richland; WA (1958); (10) A. L. 
Bement, Jr., ``Burnup and Specific Power Calculations for the Thermal 
Neutron Irradiation of Thorium-uranium Alloys,'' USAEC Formal Report 
HW-56631, Hanford Atomic Product Operations; General Electric Co., 
Richland, WA (1958); (11) A. L. Bement, Jr., and R. L. Hales, ``Neutron 
Damage to Metals--A Program Document,'' USAEC Formal Report HW-59300A, 
Hanford Atomic Product Operations, General Electric Co., Richland, WA 
(1959); (12) A. L. Bement, Jr., ``The Effects of Low Neutron Exposures 
at Low Temperature on the Hardness and Tensile Properties of Natural 
Uranium,'' USAEC Formal Report HW-60326; Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1959); (13) K. R. 
Wheeler, H. J. Pessl; and A. L. Bement, Jr., ``Effects of, Reactor 
Environment on Candidate PRTR Gas-loop Materials,'' USAEC Formal Report 
HW, 62543, Hanford Atomic Product Operations, General Electric Co., 
Richland, WA (1959); (14) D. L. Gray and A. L. Bement, Jr., ``Effect of 
Irradiation upon Mechanical Properties of Zircaloy-2,'' USAEC Formal 
Report HW-62422, Hanford Atomic Product Operations, General Electric 
Co., Richland, WA (1959). (15) A. L. Bement, Jr., ``Tensile Properties 
of Irradiated Thorium,'' USAEC Formal Report HW-66643, Hanford Atomic 
Product Operations, General Electric Co., Richland, WA (1960). (16) A. 
L. Bement, Jr., ``Examination of an Irradiated, Zircaloy-2, Hot Water 
Loop Tube,'' USAEC Formal Report HW-65499, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1960); (17) A. L. 
Bement, Jr., and L. D. Coffin, ``Automatic Processing of Tensile Test 
Data,'' USAEC Formal Report HW-71570, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1963); (18) A. L 
Bement, Jr., ``Effects of Cold Work and Neutron Irradiation on the 
Tensile Properties of Zircaloy-2,'' USAEC Formal Report HW-74953, 
Hanford Atomic Product Operations, General Electric Co., Richland, WA 
(1963); (19) A. L. Bement, Jr., and J. E. Irvin, ``Materials 
Irradiations in the ETR-G-7 Hot Water Loop,'' USAEC Formal Report HW-
80615, Hanford Atomic Product Operations, General Electric Co., 
Richland, WA (1964); (20) A. L. Bement, Jr., and J. E. Irvin, ``The 
Effects of Hot-water Thermal Treatments in the Cold Work Recovery of 
the Tensile Properties of Zircaloy-2,'' USAEC Formal Report HW-80309, 
Hanford Atomic Product Operations; General Electric Co., Richland, WA 
(1964); (21) A. L. Bement, Jr., and R. G. Hoagland, ``Fracture Studies 
of Zircaloy-2,'' USAEC Formal Report HW-82681, Hanford Atomic Product 
Operations, General Electric Co., Richland, WA (1964); (22) J. E. 
Irvin, A. L. Bement, Jr., and R. G. Hoagland, ``The Combined Effects--
of Temperature and Irradiation on the Mechanical Properties of 
Austenitic Stainless Steels,'' USAEC Formal Report BNWL-1, Pacific 
Northwest Laboratory, Battelle Memorial Institute, Richland, WA (1965); 
(23) A. L. Bement, Jr., R. E. Dahl and J. E. Irvin, ``Fast Neutron Flux 
Characteristics of the ETR-G-7 Hot Water Loop,'' USAEC Formal Report 
BNWL-89, Pacific Northwest Laboratory, Battelle Memorial Institute, 
Richland, WA (1965); (24) A. L. Bement, Jr., and L. E. Steele, ``USAEC-
Industry Meeting on Irradiation Effects to Reactor Structural 
Materials,'' USAEC Formal Report BNWL-609, Pacific Northwest 
Laboratory, Battelle Memorial Institute, Richland, WA (1967).
    Journal Publications: (1) A. L. Bement, Jr., ``Tensile Properties 
of Irradiated Thorium,'' Journal of Nuclear Materials, 6 (1962); (2) A. 
A. Dykes and A. L. Bement, Jr., ``Void Formation in Nickel by Flash 
Heating,'' J. Nucl. Mater., 42, 223-226 (1972); (3) J. B. Vander Sande 
and A. L. Bement, Jr., ``Investigation of Second-phase Particles in 
Zircaloy-4 Alloys,'' J. Nucl. Mater., 52, 115-118 (1974); (4) G. E. 
Lucas and A. L. Bement, Jr., ``The Effect of a Zirconium 
StrengthDifferential on Cladding Collapse Predictions;'' J. Nucl. 
Mater., 58, 246252(1974); (5) E. Lucas and A. L. Bement, Jr., 
``Temperature Dependence of the Zircaloy-4 Strength-differential,'' J. 
Nucl. Mater., 58, 163-170 (1975); (6) P. Hendrick, A. L. Bement,. Jr., 
and O. K. Harling, ``Proton-simulated Irradiation-induced Creep,'' 
Nucl. Instrum. Meth., 124, 389-395 (1975); (7) P. Hendrick, D. J. 
Michel, A. G. Pieper, R. E. Surratt,-and A. L. Bement, Jr., 
``Simulation of Irradiation-induced Creep in Nickel,'' J. Nucl Mater., 
59, 229-23; (8) P. Hendrick, D. J. Michel, A. G. Pieper, R. E. Surratt, 
and A. L. Bement, Jr., ``Simulation of Irradiation-induced Creep in 
Nickel,'' J Nucl. Mater., 59, 229-23; (9) P. Hendrick, D. J. Michel, A. 
G. Pieper, R. E. Surratt, and A. L. Bement, Jr., ``Ion Simulation 
Irradiation-induced Creep,'' Nucl. Instrum. Meth., 133, 509-52; (10) C. 
Peterson, S. Mansour and A. L. Bement, Jr., ``Effects of `Optical 
Illumination on Fatigued Lead, Zirconate Titanate Capacitors,'' Integ. 
Ferroelec., 7, 139-147 (1995); (11) C. Peterson, S. A. Mansour, A. L. 
Bement, Jr., and G. Liedl,'' Optical Studies of PZT/Metal and Metal-
Oxide Interfaces,'' Integ. Ferroelec., ,7, 139-147 (1995); (12) A. V. 
Rao, S. Mansour, and A. L. Bement, Jr., ``Fabrication of Ferroelectric 
PZT Thin Film Capacitors with Indium Tin Oxide (ITO) Electrodes,'' 
Mater. Ltrs., 29, 255-258 (1996); (13) E. N. Paton, M. Brazier, S. 
Mansour, and A. L. Bement, Jr., ``A Critical Study of Defect Migration 
and Ferroelectric Fatigue in Lead Zirconate Titanate Thin Film 
Capacitors Under Extreme Temperatures'', Integ. Ferroelec., 18, 529-537 
(1997).
    Transactions and Conference Proceedings: (1) R. D. Pehlke and A. L. 
Bement, Jr., ``Mass Transfer of Hydrogen between Liquid Aluminum and 
Bubbles of Argon Gas,'' Trans. AIMS, 224 (1962); (2) A. L. Bement, Jr., 
Discussion on Paper by R. J. Wasilewski entitled ``On Discontinuous 
Yield and Plastic Flow in a-titanium,'' Trans. ASM, 56 (1963); (3) A. 
L. Bement, Jr. and J. E. Irvin, ``Automatic Processing of Mechanical 
Properties Data,'' Metals Engineering Quarterly, 4 (1964); (4) A. L. 
Bement, Jr., J. C. Tobin, and R. G. Hoagland, ``Effects of Neutron 
Irradiation on the Flow and fracture Behavior of Zircaloy-2,'' Flow and 
Fracture of Metals and Alloys in Nuclear Environments; Special 
Technical Publication No. 380, ASTM 364-384 (1965); (5) A. L. Bement, 
Jr., J. E. Irvin, and R. G. Hoagland, ``Combined Effects of 
Temperatures and Irradiation on the Mechanical Properties of Austenitic 
15 Stainless Steels,'' Flow and fracture of Metals and Alloys in 
Nuclear Environments, Special Technical Publication No. 380, ASTM, 236-
250 (1965); (6) A. L. Bement, Jr., ``Zirconium Cladding Alloys,'' 
Proceedings of M.I.T. Symposium on Materials of Nuclear Power Reactors, 
Cambridge, MA (1966); (7) A. L. Bement, Jr., ``Radiation Damage in 
Hexagonal Close-packed Metals and Alloys,'' Proceedings of AIME 
Symposium on Radiation Effects, Asheville, NC, Gordon and Breach, NY, 
671-725 (1967); A. L. Bement, Jr., ``Effects of Minor Constituents on 
the Irradiation Damage to Austenitic Stainless Steels,'' Proceedings of 
ASTM Symposium on the Effects of Residual Elements on Properties of 
Austenitic Stainless Steels, Special Technical Publication No. 418, 
ASTM (1967); (9) R. G. Hoagland, A. L. Bement, Jr., and R. G. Rowe, 
``Applications of Fracture Mechanics in Evaluating the Initiation and 
Propagation of Brittle Fracture in Reactor Structural Components,'' 
Proceedings of ASTM Symposium on the Effects of Radiation on Structural 
Metals, Special Technical Publication No. 426, ASTM, (1967); (10) J. E. 
Irvin and A. L. Bement; Jr., ``The Nature and Engineering Significance 
of Radiation Damage to Various Stainless Steel Alloys,'' Proceedings of 
ASTM Symposium on the Effects of Radiation on Structural Metals; 
Special Technical Publication No. 426, ASTM (1967); (11) E. R. Gilbert, 
A. L. Bement, Jr., and S. A. Duran, ``Creep of Zirconium from 50 to 
850\1/2\C,'' Applications-related Phenomena for Zirconium and its' 
Alloys, Special Technical Publication 458, 210-225, ASTM (1970); (12) 
A. L. Bement, Jr., ``Fundamental Materials Problems in Nuclear 
Reactors,'' Proceedings of 2nd International Conference on Strength of 
Metals and Alloys, ASM, 2, 693-728 (1970); (13) A. L. Bement, Jr., 
``Introduction of Wrap-up Session,'' Proceedings of the Conference on 
Fast Reactor Fuel Element Technology, New Orleans, LA, ANS (1971); (14) 
A. L. Bement, Jr., ``Radiation Effects on Zirconium and Zirconium 
Alloys,'' Proceedings of the United States-Japan Seminar on Radiation 
Effects in Metals and Structural Materials, Kyoto, Japan (1971); (15) 
A. L. Bement, Jr., ``Irradiation Effects of Structural Materials. II. 
Radiation Hardening,'' Rev. Roum Phys., 17, 361-380 Bucharest (1972); 
(16) A. L. Bement, Jr., ``Irradiation Effects of Structural Materials. 
II. Brittle Fracture,'' Rev. Roum. Phys., 17, 505-517, Bucharest 
(1972); (17) A. L. Bement, Jr., ``Irradiation Effects of Structural 
Materials. III. High Temperature Embrittlement;'' Rev. Roum. Phys., 17; 
519-525, Bucharest (1972).; (18) A. L. Bement, Jr., ``Irradiation 
Effects of Structural Materials. IV. Creep and Growth,'' Rev. Roum. 
Phys., 17, 607-618, Bucharest (1972).; (19) A. L. Bement, Jr., 
``Irradiation Effects of Structural Materials. V. Void Swelling,'' Rev. 
Roum. Phys., 17, 619-630 (1972); (20) H. K. Bowen, D. R. Uhlmann, J. F. 
Louis, J. W. Halloran, W. T. Petuskey, R. Goodof, and A. L. Bement; 
Jr., ``High Temperature Electrodes,'' Proceedings of the First USA-USSR 
Symposium on MHD, Moscow; (1974); (21) A. L. Bement; Jr., ``Needs in 
Alloy Design for Nuclear Applications,'' in Proceedings of Battelle 
Colloquium on the Fundamental Aspects of Structural Alloy Design, 
Seattle, WA and Harrison Hot Springs, BC (1975); (22) A. L: Bement, 
Jr., ``Interrelationship Between Nuclear Fuel Design, Performance and 
Fabrication,'' Proceedings of the International Symposium on Nuclear' 
Power Technology and Economics, Taipei, Taiwan (1975); (23) Y. H. Choi 
A. L. Bement, Jr., and K. C. Russell, ``The Effect of Fusion Burn 
Cycles on First Wall Swelling,'' Proceedings of the International 
Conference on Radiation Effects and Tritium Technology for Fusion 
Reactors, Ed., J. S. Watson and F. W. Wiffin; 11.1-11.17 (1976); (24) 
P. L. Hendrick, D. J.' Michel, A. G. Pieper, R. E. Surratt, and A. L. 
Bement, Jr., ``Ion-simulated Irradiation Creep of Nickel,'' Proceedings 
of the International Conference on Radiation Effects and Tritium 
Technology for Fusion Reactors, Ed., J. S. Watson and F. W. Wiffin 
(1976); (25) Y. Y. Liu and A. L. Bement, Jr., ``Regression Approach for 
Zircaloy-2 Inreactor Creep Constitutive Equations,'' M.I.T., Transcript 
of the 4th International Conference on Structural Mechanics in Reactor 
Technology, Structural Analysis of Reactor Fuel and Cladding, San 
Francisco, CA, Commission of European Communities, Luxemburg (1977); 
(26) A. L. Bement, Jr., ``Greening of Materials Science and 
Engineering,'' Mater. Soc. V. 11, N4,415-432 (1987); (27) A. L. Bement, 
Jr., ``Greening of Materials Science and Engineering,'' Metall. Trans. 
A., 18A, 363-375 (1987); (28) A. L. Bement, Jr., ``Review and Forecast 
for NDE in Advanced Materials Technology,'' Proceedings for the 
Conference for the Review of Progress in Quantitative NDE, University 
of California-San Diego, LaJolla, CA (1990); (29) A. L. Bement, Jr., 
``Progress in Materials Science,'' Proceedings of the International 
Conference, Electricity Beyond 2000 Forum, Washington, DC: Electric 
Power Research Institute, Palo Alto, CA (1991); (30) A. L. Bement, Jr., 
``Utilization of Science and technology to Reduce Materials 
Vulnerability,'' Materials and Society, 7 (1991); (31) C. R. Peterson, 
S. A. Mansour, and A. L. Bement, Jr., ``An Optical Study of PZT Thin 
Film Capacitors,'' Proceedings of the 7th International Symposium on 
Integrated Ferroelectrics, ACS (1995); (32) S. A. Mansour; J. L. 
Norton, G. L. Liedl, A. L. Bement, Jr., and C. Venkatraman, ``Laser 
Beam Lithography of Metal Oxide Electrodes for PZT Memory Applications, 
``Proceedings of the MRS Spring Meeting, San Francisco, CA (1995); (33) 
J. L. Norton, S. A. Mansour, G. L. Liedl, A. L. Bement, Jr. And C. 
Venkatraman, ``Laser Beam Lithography of Metal Oxide Electrodes for PZT 
Memory Applications,'' Materials: Fabrication and Patterning at the 
Nanoscale, MRS, 380, 99-104 (1995); (34) S. A. Mansour, A. Rao, and A. 
L. Bement, Jr., ``Photo-induced Effect Recovery in PZT Thin Film 
Capacitors with Oxide Contacts,'' Materials for Smart Systems II, MRS, 
459, 201-206 (1997); (35) A. L. Bement, Jr., ``Benchmarking National 
Leadership in Materials Science and Engineering.'' Proceedings of the 
5th International Conference on Modern Materials and Technologies, 
Florence, Italy, June 14-19, 1998; (36) A. L. Bement, Jr., ``Status of 
Electrical and Magnetic Instruments as of the Turn of the Century'', 
Proceedings of the Symposium on 20th Century Developments in 
Instrumentation and Measurements, American Physical Society Centennial 
Meeting, Atlanta, Georgia, March 21, 1999.
    Other Publications: (1) A. L. Bement, Jr., ``Materials Problems in 
Advanced Energy Conversion,'' University Forum on National Materials 
Policy, National Commission on Materials Policy, M.I.T., (1972); (2) A. 
L. Bement, Jr., and R. Kaplow, ``Materials Limitations in Advanced 
Energy Conversion Systems,'' Report of the ARPA Materials Research 
Council Summer Conference, Centerville, MA (1972); (3) R. Kaplow, A. L. 
Bement, Jr, and M. Cohen, ``Solar Energy,'' Volume II of Preliminary 
Reports, Memoranda and Technical Notes of the Materials Research 
Council Summer Conference, LaJolla, CA., U. Of Michigan Report 
No.005020 (1973); (4) A. L. Bement, Jr., ``Outlook for Technology in 
the 80's,'' Testimony before the Ohio House of Representatives Select 
Committee on Technology (1983); (5) A. L Bement, Jr., ``National 
Perspectives on the Role of Universities and Industry Promoting Science 
and Technology,'' Testimony before the Ohio Science and Technology 
Commission, Cleveland, OH (1989); (6) A. L. Bement, Jr., S. K. El-
Rahaiby and C.` X. Campbell, ``Bringing Advanced Materials to Market,'' 
DoD Ceramics Information Analysis Center (CHIC), CINDAS, Purdue 
University (1995); (7) A. L. Bement, Jr., ``The Opportunities and 
Shortfalls of National Science and Technology Policy,'' Materials 
Technology, 10, #3-4 (1995); (8) A. L. Bement, Jr., ``Inventivity: The 
Art and Science of Research Management by John J. Gilman'', Book 
Review, Materials Technology, 8, September/October 1993, Elsevier.
    Congressional Testimony: (1) J. E. Louis and A. L. Bement, Jr., 
``MHD Power Generation, an Assessment and a Plan for Action,'' 
Testimony before the Task Force on Energy of the Subcommittee on 
Science, Research and Development of the Committee on Sciences and 
Astronautics, U.S. House of Representatives, 92nd Congress, Volume II, 
U.S. Government Printing Office, Washington, DC (1972); (2) A. L. 
Bement, Jr., and R. Kaplow, ``Statement on the Importance of Materials 
in Power Technology,'' Testimony before the Subcommittee on Space 
Science and Applications and Subcommittee on Energy of the Committee on 
Science and Astronautics, U.S. House of Representatives, 93rd Congress, 
U.S. Government Printing Office (May 24, 1973); (3) A. L. Bement, Jr., 
``Utilization of Science and Technology to Reduce Materials 
Vulnerability,'' Testimony before the Subcommittee on Science, 
Technology and Space, U.S. Senate Committee on Commerce, Science and 
Transportation (June, 1982); (4) A. L Bement; Jr., ``Views on the 
President's National Materials and Minerals Plan and Report to 
Congress,'' Testimony before the Schmitt Subcommittee on Science, 
Technology and Space of the Senate Committee on Commerce, Science and 
Transportation (June 22, 1982); (5) A. L. Bement, Jr., ``The Economic 
Competitiveness, International Trade and Technology Development Act for 
1987,'' Testimony before the Senate Committee on Government Affairs on 
Senate Bill 1233 (June 9, 1987); (6) A. L. Bement, Jr., ``Issues 
Related to the Development of Magnetically-levitated Transportation 
Systems Along the Federal Highway Rights of Way,'' Testimony before the 
Subcommittee on Water Resources, Transportation and Infrastructure, 
Washington, DC (October 24, 1988); (7) A. L. Bement, Jr., 
``Authorization for the Appropriation for the Activities of the 
National Institute of Standards and Technology'', Testimony before the 
Subcommittee on Space, Science and Technology, U.S. House of 
Representatives; Washington, DC (March 8, 1989); (8) A. L. Bement, Jr., 
``Department of Commerce Technology Programs,'' Testimony before the 
Subcommittee on Science, Research and Technology of the Committee of 
Science, Space and Technology, U.S. House of Representatives, 
Washington, DC (Feb. 6, 1990); (9) A. L. Bement, Jr., ``The Trade and 
Technology Promotion Act of July, 1989,'' Testimony before the 
Committee on Government Affairs, U.S. Senate on Senate Bill S. 1978, 
Washington, DC (June 12, 1990); (10) A. L. Bement, Jr., ``Findings and 
Recommendations of the Visiting Committee on Advanced Technology of the 
National Institute of Standards and Technology,'' Testimony before the 
Subcommittee on Science, Research and Technology, Committee on Science, 
Space and Technology, U.S. House of Representatives (Feb. 26, 1991); 
(11) A. L. Bement, Jr., ``On the Midwest Superconductivity 
Consortium,'' Testimony before the Energy and Water Development 
Subcommittee on Appropriations, Committee on Appropriations, U.S. House 
of Representatives (April 1, 1993); (12) A. L. Bement, Jr., ``On the 
Midwest Superconductivity Consortium,'' Testimony before the Energy and 
Water Development Subcommittee on Appropriations, Committee on 
Appropriations, U.S. House of Representatives (April 1, 1993); (13) A. 
L. Bement, Jr., ``On the Midwest Superconductivity Consortium,'' 
Testimony before the Energy and Water Development Subcommittee on 
Appropriations, U.S. House of Representatives (April 11; 1994); (14) A. 
L. Bement, Jr., ``On the Midwest Superconductivity Consortium,'' 
Testimony before the Energy and Water Development Subcommittee on 
Appropriations; U.S. House of Representatives (March 28, 1995); (15) A. 
L. Bement, Jr., ``On H.R. 1756, the Department of Commerce Dismantling 
Act,'' Testimony submitted for record to the Committee on Science, U.S. 
House of Representatives (September 12, 1995); (16) A. L. Bement, Jr., 
``On the Midwest Superconductivity Consortium;'' Testimony before the 
Energy and Water Development Subcommittee on Appropriations, U.S. House 
of Representatives (February 29, 1996); (17) A. L. Bement, Jr., ``On 
the Midwest Superconductivity Consortium,'' Testimony before the Energy 
and Water Development Subcommittee on Appropriations, U.S. House of 
Representatives (March 31, 1997).
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. ``Guidelines for Innovation: The Role of Research and 
Development Policy,'' presented at the Workshop on Germany and the 
United States-Partners in Science and Technology, Konrad Adenauer 
Foundation, Berlin, July 17, 2000. ``One Hundred years of Excellence 
and Still Improving . . . A View from the Outside,'' presented at the 
NIST Centennial Symposium, Gaithersburg, Maryland, March 5, 2001.
    17. Selection: (a) I believe it was because of my performance 
record in technology and research leadership positions with government, 
industry and academia and my extensive networking with high-ranking 
leaders in all three sectors. (b) I believe that my experience in 
research and leadership positions in industry, government, and academia 
along with my long-term service to the scientific and engineering 
communities at large qualify me for this position.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business form, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. Deferred board fee compensation, Keithley 
Instruments; Inc. Consulting agreement, Howmet Research Company.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. Stock ownership in 
street name with: Keithley Instruments, Inc.; Lord Corporation; Sprint 
PCS; Sprint FON; Alltel, and Oryx Technologies. Stock options with 
Keithley Instruments, Inc. Stock loans with Lord Corporation. Loan from 
Raymond James & Assoc. Financial Services (Regulation T margin loan 
secured by Keithley Instruments, Inc. stock)
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
Administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your response to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
consult with ethics officials and take any actions required by my 
ethics agreement or advised by legal counsel.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or ant impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or any other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any federal, state, or other law enforcement authority for violation of 
any federal, state, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you any business of which you are or were an officer ever 
been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable; which you feel should be considered in 
connection with your nomination. I believe I have led my life 
respecting the law.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the law passed by Congress. It is 
my understanding that NIST seeks legal counsel relative to federal from 
the Department of Commerce and Congressional staff members to 
understand the intent and spirit of laws passed by the Congress; I will 
establish a policy of meeting frequently with appropriate Congressional 
staff members to obtain interpretations of the law as they apply to 
Department regulations.
    5. Describe your departmentlagency's current mission, major 
programs, and major operational objectives. The mission of the National 
Institute of Standards and Technology is to develop and promote 
measurements and standards and advanced technologies that enhance 
productivity and quality, facilitate trade, and contribute to the 
economic well being of the nation.
    The major programs and operational objectives at NIST are the 
following: Provide U.S. private and public sectors with measurements, 
standards, and information services that increase competitiveness and 
facilitate trade; Conduct long-term research in measurement science and 
develop and promulgate standards and standard reference data for 
electronics and electricity, chemical science and technology, and 
materials science and engineering; Demonstrate evaluation techniques, 
testing methods and standards to enable U.S. industry to use 
interoperable products for information technology; Develop interfaces, 
recommended practices, and associated technology to the manufacturing 
industries; Provide laboratory assistance in the increased usefulness, 
safety and economy of buildings and the prediction, prevention, 
measurement, and control of fires; Provide assistance to industry and 
to other public benefit organizations in the development of technology 
and procedures to improve U.S. quality and competitiveness through the 
National Quality Program; Work with the Secretary, Deputy Secretary and 
Under Secretary for Technology to make the Advanced Technology Program 
stronger and more sustainable; Develop as a joint venture with state 
and local governments technical assistance with smaller U.S. 
manufacturers to strengthen their global competitiveness through the 
Manufacturing Extension Program.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
'qualified you for the position for which you have been nominated? I 
believe the following factors are salient: Senior R&D and technology 
leadership positions in industry, academia, and government; Business 
experience in directing high-technology companies; Experience in 
technology policy development and execution in the Department of 
Defense, Department of Commerce, NASA, and the Congress; A record of 
research achievements leading to membership in the National Academy of 
Engineering and membership on the National Science Board; Extensive 
advisory committee experience with NIST to include the statutory 
Visiting Committee for Advanced Technology (chair), the Board of 
Overseers for the Malcolm Baldrige National Quality Award Program, and 
the Advanced Technology Program Advisory Committee (chair); Research 
contributions in the field of materials science and engineering; A 
breadth of exposure to emerging technology developments and basic 
research at national laboratories, universities and industry leading to 
an understanding of what constitutes outstanding research and research 
performance.
    2. Why do you wish to serve in the position for which you have been 
nominated? I am strongly committed to the mission of NIST. I believe 
that its continued strength in performing its mission is essential for 
the economic and technological welfare of the Nation and the continuing 
ability of U.S. industry to effectively compete in global markets. It 
is an institution with a strong research culture, high ethical 
standards, and a tradition of` outstanding accomplishments. I believe 
it deserves the very best of my effort, experience, and abilities. 
Finally, I wish to complete my career in public service.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? The principal goals would be the following: 
Establish strategic planning tools across NIST that would better align. 
NIST's strategic vision and goals with national needs and priorities; 
Provide good stewardship for NIST facilities to achieve optimal 
utilization; Establish a more proactive NIST involvement with 
international standards developments; Work with the Secretary, Deputy 
Secretary, the Under Secretary for Technology and the Congress to 
develop a more stable, sustainable Advanced Technology Program; 
Continue to build on NIST's traditions and culture to help NIST provide 
the greatest return to the Nation through excellence in science and 
technology; Find more effective means to communicate with industry and 
government decision makers about he important contributions that KIST 
makes to industrial and technological developments and the economic 
well-being of the nation.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain these skills? I believe I have strong skills and 
experience in the key areas needed to provide leadership for KIST, 
including management of personnel, finances, technical programs, and 
planning processes: To lead KIST as effectively as possible, I will 
focus on supplementing my background with the following actions: 
Refreshing my knowledge of federal policies and regulations governing 
management of personnel, facilities, and finances; Becoming familiar 
with. the specific budgeting processes at NIST, the DOC, and the OMB; 
Establishing effective relationships with the Office of the Inspector 
General and Legal Counsel; Improving my understanding of the U.S. 
voluntary standard setting processes and organizations and of how the 
U.S. system and international systems interact.
    5. Who are the stakeholders in the work of this agency? Direct 
stakeholders include: Industry and academic users of NIST measurements 
and standards, including purchasers of more than 38,000 NIST standard 
reference materials annually; Industry, academic, and federal R&D 
organizations which benefit from KIST measurement research through more 
than 2,000 peerreviewed technical publications annually, and through 
many other means of disseminating NIST research; Industry and academic 
research projects receiving more ATP cofunding: More than 350 companies 
participating in more than 170 joint ventures, and including about 140 
universities, with a total ATP investment of more than $1.6 billion 
since the program began about 10 years ago; U.S smaller manufacturers 
served through more than 400 Manufacturing Extension Partnership 
centers and offices in all 50 states and Puerto Rico, providing direct 
business and technical assistance; All types of companies and 
organizations that use the Baldrige criteria for performance 
excellence. Different sets of criteria are optimized for business, 
health care organizations, and educational organizations. More than 2 
million copies of the Baldrige criteria. have been distributed, and 
quality programs based on the Baldrige principles are used throughout 
the U.S. and in many foreign nations; federal agencies with regulatory 
responsibilities that rely on NIST measurements and standards to 
fulfill their missions.; federal agencies that rely on NIST information 
processing and information security standards, practices, and 
guidelines; state weights and measures organizations that rely on NIST 
certification and training to fulfill their regulatory responsibilities 
for all types of legal measurement needs. Laws governing weights and 
measures affect more than half the U.S. GDP, or about $5 trillion per 
year; National standards developing organizations that rely on NIST 
technical expertise and advice to develop voluntary consensus standards 
driven by the private sector to promote trade and ensure product 
quality, and performance; International standards developing 
organizations that work with NIST and U.S. standards developing 
organizations; U.S. private sector and local government measurement and 
standards laboratories that are accredited through organizations 
cooperating with NIST.
    A key indirect stakeholder is the general public, which benefits 
from NIST measurements and standards that enable efficient 
manufacturing of products and delivery of services, that ensure fair 
commerce through accurate weights and measures, that underpin provision 
of quality health care, that increase public safety through structural 
and fire standards for buildings, and through many other NIST 
activities too numerous to list here.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number 5: Among 
these would be the following: Communicate to all stakeholders the 
impacts and values of NIST programs, services and capabilities to their 
needs; Solicit from stakeholders assessments of the impacts and values 
of NIST's products and services; Involve stakeholders in charting the 
future vision and objectives of NIST and in identifying strengths, 
weaknesses, opportunities, and threats; Maintain an open stance as a 
principal point of contact to respond to needs, issues or complaints.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? Provide the 
CFO with the talent and IT resources needed to perform his/her function 
at the highest possible level of performance; Assure that Laboratory 
managers and unit heads are adequately trained in standard government 
accounting and financial management and reporting procedures; Involve 
the CFO in all executive committees at NIST and in all strategic 
planning activities; Consider establishing an audit and finance 
subcommittee of the Visiting Committee for Advanced Technology; Assure 
a seamless relationship between department- and KIST finance operations 
and policy development functions; Assure that the Office of the IG has 
timely access to all requested financial information. (b) What 
experience do you have in managing a large organization? I have had 
responsible management positions with top organizations in indusrry, 
government and academia, to include General Electric Company, Battelle 
Memorial Institute, TRW, Inc., Defense Advanced Projects Agency, Office 
of the Secretary of Defense, MIT, and Purdue University. I have also 
had long-term corporate directorships with Keithley Instruments, Inc. 
and Lord Corporation. In these positions I have had. extensive 
experience in personnel management; financial budgeting and control; 
strategic planning; R&D, management; and technology transfer. Budget 
authorities have ranged from $3 million to approximately $3 billion 
(DOD). A brief description of these management assignments is given in 
section A.9. in this questionnaire.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. These requirements establish a basis for 
managing by objectives and for being accountable for performing against 
these objectives. They also provide an opportunity to learn the 
practice of realistic goal setting and forward thinking. (b) What steps 
should Congress consider taking when an agency fails to achieve its 
performance goals? Should these steps include the elimination, 
privatization, downsizing or consolidation of departments and/or 
programs? The Congress should exercise its oversight authority to 
determine the root causes for failing to meet performance goals. 
Possible factors involved may be due to improper organizational 
structure, management system, or monitoring and control mechanisms, or 
incompetence. However, failures may also result if the agency is not 
provided sufficient human and financial resources to meet its 
performance goals, or if other external factors prevent the goals from 
being met. The corrective actions described in the question may be 
appropriate for some cases, but in other cases Congress may provide 
greater benefit to the Nation by addressing external factors that 
prevent. success of the agency. (c) What performance goals do you 
believe should be applicable to your personal performance, if 
confirmed? I should be held to the performance goals set by the 
Secretary, Deputy Secretary and Under Secretary for Technology and as 
specified by law and by the Congress. I should also be held accountable 
for accomplishing goals identified in GPRA reports and NIST planning 
documents. I should be held to the highest ethical standards applicable 
to anyone serving in the public's trust.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally; what supervisory model do you follow? Have 
any employee complaints been brought against you? I have followed the 
following principles in supervisor/employee relationships: Lead by 
example . . . don't expect what you would not be willing to do; Set 
high standards but empower the individual to achieve his/her highest 
potential; Delegate authority but hold the individual accountable for 
results; Listening can pay premiums in understanding an individual's 
strengths and weaknesses. Build on the strengths and provide mentoring 
and training to overcome the weaknesses; Celebrate achievements . . . 
psychic rewards can be as important as tangible rewards; Be alert for 
opportunities that will motivate individuals to exceed their own 
expectations; When setting tough goals be patient . . . individuals 
often arrive at innovative solutions on their own. 1No employee 
complaints have been brought against me throughout my career.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. My working relationships with the 
Congress have been primarily to give testimony upon request. I have 
also recently discussed with staff members the 2000 annual report of 
the Advanced Technology Program Advisory Committee. During the period 
1980-1986 I served as a member of the Advisory Panel to the 
Congressional Task Force on Technology Policy, co-chaired by 
Congressmen McKay and Packard.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency? As a representative of the Congress, the IG is 
entitled to my full support. My responsibilities would include 
providing any information requested by the IG in a timely way; 
providing access to any personnel for fact finding; support any 
investigations required; and to take actions stipulated by the IG based 
on such investigations. It would also be my responsibility to assure 
that all personnel at NIST are informed of the functions and 
authorities of the IG.
    12. Please explain how you would work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. I would 
work closely with the General Law Division of the Office of the 
Assistant General Counsel for Administration, Department of Commerce, 
to assure that such compliance is fulfilled.
    13. In the areas under department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. At this stage of my knowledge of critical 
needs, I can cite three legislative actions of high priority: Spending 
authority to complete the equipping of the Advanced Measurements 
Laboratory; Changes in the Authorizing Act for the Advanced Technology 
Program as requested by the Secretary of Commerce; Budget authority to 
enable essential research facilities improvements at the Gaithersburg 
and Boulder sites.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If yes, please state what steps you intend to 
take and a timeframe for their implementation. Yes, I pledge to do so. 
I am aware-that criteria are already in place at NIST for the use of 
director's discretionary funds. I will assess the adequacy of these 
criteria at my first opportunity and modify them as required with the 
participation of NIST managers and key personnel. The NIST-wide 
strategic plan, identified as one of my priority initiatives, will 
address incentives to encourage cross unit interdisciplinary research 
initiatives and other such incentives that improve the responsiveness, 
productivity and quality of NIST activities. A first version of this 
plan should be developed, ready for vetting with NIST management and 
employees in fall 2002.

    Senator Wyden. We will have some momentarily, and we very 
much appreciate your presentation, doctor.
    Mr. Paulison, welcome.

        STATEMENT OF R. DAVID PAULISON, NOMINATED TO BE 
          ADMINISTRATOR, FIRE ADMINISTRATION, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Paulison. Thank you, Mr. Chair. First of all, let me 
say that I am honored today to be in front of this Committee 
and discuss the opportunity to serve President Bush, the fire 
and emergency service, and this nation. I am very, very proud 
and honored to be here. As a 30-year fire service veteran, I 
can think of no greater honor than being here today and being 
considered for the U.S. Fire Administrator's position.
    I want to thank Senator Bill Nelson and Senator Graham for 
their long-time support and also the rest of the Florida 
Congressional delegation, who has always been behind me in the 
things we wanted to do in Florida, and South Florida 
particularly.
    I want to thank Director Albaugh for having the confidence 
in me to put my name forward for the President to make the 
nomination. They have both shown outstanding leadership during 
this period of time, not only after September 11th but before 
also. They have shown to be true friends of the American 
firefighters.
    I would also be remiss if I did not acknowledge the 
outstanding work of Ken Burrus, our Chief Operating Officer, 
who has served in the capacity of the U.S. Fire Administrator 
in an acting position for the last several months. Ken is in 
the audience back here. Ken, would you mind standing up. He has 
just done an outstanding job for us and I appreciate it very 
much, and he is babysitting me through this process also.
    I also recognize that several Committee Members served in 
World War II. I went through your biographies. My father did 
also, and I wish he was here to see this today, but I know he 
is watching. He and my mother gave me the work ethic and the 
love of public service that I have and it is one of the reasons 
that I am here today.
    Our nation's fire service is in the front line of defense 
every day against fires, accidents, floods, natural and manmade 
disasters, and now we must add terrorist events. I am proud, 
absolutely proud, of the efforts of the New York City 
firefighters and for all the rescuers from around the nation 
that responded as part of FEMA's urban search and rescue 
program.
    The events of September 11th have shown the nation the 
importance of fire service, a service that was once taken for 
granted, but is now being viewed as an essential component of 
public safety and homeland defense. The very challenges that we 
face in response to the events of September 11th are the same 
challenges the fire service and emergency management community 
face in response to all hazards.
    I want to thank this Committee for their concern, your 
support, and your understanding to recognize the needs of the 
fire service and their contribution to public safety.
    I have had the privilege, as Senator Nelson said, of 
serving since 1992 as the Fire Chief of Miami-Dade County. 
Additionally, I have been responsible for Miami-Dade County's 
Office of Emergency Management. In that role I have been 
responsible for the mitigation and preparedness of major 
incidents. After serving in both of these capacities, I am 
absolutely convinced that Director Albaugh is correct in his 
effort to build cooperation and understanding between the fire 
and emergency management community. That is a bridge we need to 
gap.
    Whether it has been a response to a major fire or incident 
commander for Hurricane Andrew or the response to the crash of 
ValuJet 592, I have seen firsthand the need for a strong 
relationship in the planning, response, recovery, and 
rebuilding from disasters. As fire services across the nation 
respond to emergency incidents, they need to have strong 
support from local, state, and federal emergency managers to 
provide coordination and logistics quickly. Lives depend on 
that cooperation.
    For the past 6 weeks we have encountered a truly emergent 
issue--terrorism. But the United States Fire Administration's 
work on terrorism began several years ago with the development 
of training programs, response guides, and outreach. I can 
assure you and the American people that if I am confirmed I 
will work with Director Albaugh, Governor Ridge, and the 
emergency services community to accelerate that effort and to 
build on our past successes. We will work to provide the 
training and the tools that get the job done and get it done 
right.
    At the United States Fire Administration, we must continue 
to work to develop and deliver training and education programs 
to the fire services on terrorist awareness and response. The 
fire departments across this nation need to be an integral part 
of the planning, training, and policy development for terrorism 
preparedness. While there is a general acknowledgment that the 
law enforcement community has a significant deterrence and 
investigatory role, it is also true that in the fire services 
they are the first on scene and therefore the first at risk. 
Any future considerations of training and funding for equipment 
must take this into account.
    Quality, robust, consistent communications capabilities 
should be developed and implemented for the fire services. As a 
nation, we need to strive to provide the communications 
infrastructure necessary for multiple agency communications.
    Every week we lose hundreds of Americans to fire. Young and 
old are most at risk. Our firefighters who respond are at risk 
every day. They should not have to give their lives. We honor 
their sacrifice, but even one is too many.
    The Assistance to Firefighters grant program is the key 
element providing assistance to our nation's fire service. It 
is important that this program--if it were taken to its full 
authorization amount and continued, USFA will need the 
authorization for personnel and for salaries and expenses to 
administer and staff the program effectively. It is also 
important that the agency be given the authority to develop the 
program with greater flexibility to address the emergent needs.
    Incentives to local governments for increased assistance 
need to be developed and enacted. Working together, the fire 
services, emergency management, and public officials at all 
levels of government, federal agencies, and the Congress can 
make tremendous strides in solving some of these problems.
    To my friends and partners in the fire and emergency 
services community, I ask for your help and your unity. The 
fire service community has had many voices, many successes, and 
some failures. If nothing else, September 11th should have 
shown all of the fire service organizations that we need to 
work together to solve these problems, to respond with one 
voice, and to acknowledge that some of our differences, while 
important, pale in comparison to the importance of our mission, 
and that is to protect the American public.
    It is not a question of volunteer versus career or 
management versus labor. It is not a question of fire versus 
law enforcement. The question is can we work together to make a 
difference in the lives of every single American, find areas we 
can agree on quickly, and on those issues we differ put aside 
our rancor and posturing and work together to address and solve 
them.
    I know the answer is yes and I pledge my commitment to work 
with all of you to build bridges and resolve the pressing 
issues that face us.
    I want again to thank this Committee for your support and 
for the opportunity to testify today, and I would also be happy 
to address any questions you might have. Thank you, Mr. Chair.
    [The prepared statement and biographical information of Mr. 
Paulison follow:]
 Prepared Statement of R. David Paulison, Nominee to be Administrator, 
                        U.S. Fire Administration
    Mr. Chairman and members of the Committee, I am honored to appear 
before this Committee today and to discuss with you the opportunity to 
serve President Bush, the fire and emergency services and the nation.
    I want to first acknowledge and thank President Bush for nominating 
me as United States Fire Administrator. As a 30-year fire service 
veteran, I can think of no higher honor. To Senator Bill Nelson, who 
has been a close friend for many years, I thank you for your support 
and for your introduction today. I also thank Senator Graham, from my 
hometown, and the members of the Florida Congressional delegation who 
have been so helpful to me for many years.
    It is also very important to me to thank FEMA Director Joe Allbaugh 
for his support of my nomination and who, along with President Bush, 
has shown such outstanding leadership during this period of national 
crisis. He and the President have proven themselves, before and after 
September 11, to be true friends and advocates of America's 
firefighters and emergency responders.
    Also, I would be remiss if I did not acknowledge the outstanding 
work of Ken Burris the Chief Operating Officer of the United States 
Fire Administration, who has served so ably as the Acting U.S. Fire 
Administrator for the past several months. Ken has transformed the U.S. 
Fire Administration into a forward thinking, dynamic agency that truly 
serves our nation's fire services community. I would like to thank Ken, 
who has been a close friend for many years, and to wish him good luck, 
as he becomes the Regional Director for FEMA Region IV in Atlanta. The 
region's gain is certainly our loss, but it also shows again the level 
of commitment that Director Allbaugh and the Administration have 
devoted toward building stronger relationships between the fire service 
and the emergency management community.
    I also have with me today my lovely wife Kathy, who along with my 
two children, have been my strength and my inspiration. I recognize 
that several Committee members served in World War II, as did my 
father. I wish he were still with us today, but I know he is watching. 
My father gave me my work ethic and instilled in me a dedication to 
public service that is shared by the members of this Committee and the 
fire service community nationwide.
    Our nation's fire service is the front line of defense every day 
against fires, accidents, floods, natural and manmade disasters of all 
kinds--and now terrorist attacks. I am extremely proud of the efforts 
of New York City and Arlington firefighters and of all of the rescuers 
from across the Nation that responded as part of FEMA's Urban Search 
and Rescue Program. The events of September 11th have shown our Nation 
the critical importance of its fire services. A service once taken for 
granted is now properly viewed as an essential component of the public 
safety equation. The New York City, Arlington, VA and Shanksville, PA 
fire departments have proven that our first responders can be called to 
respond across urban, suburban and rural communities of our country. 
Fire departments of every type--career, volunteer and combination--
across our Nation must be vigilant to heed the call to service at a 
moments notice.
    The very challenges that were faced in the response to the events 
of September 11th are the same challenges the fire service and 
emergency management community face in response to all hazards. I thank 
the Committee members for your concern, your support and your 
understanding of the need to recognize the fire services' contribution 
to public safety and their future needs.
    At the United States Fire Administration, we must continue to 
develop and deliver training and educational programs to the fire 
services on terrorism awareness and response. Many fire departments 
across the Nation are asking themselves, ``are we prepared for this?'' 
or ``how on earth are we ever going to handle something like this?'' 
Both of these are good questions, but many other departments are saying 
just the opposite; they think, ``. . . it will never happen here''. 
Make no mistake, the message every fire department in America should 
have gotten is that we are all vulnerable to the effects of another 
terrorist attack, and if I am fortunate enough to be confirmed, it will 
be my privilege and goal to provide the training and support the fire 
services need to protect themselves and their communities in responding 
to what was once unthinkable.
    I have had the privilege of serving since 1992 as the Fire Chief of 
Miami-Dade County. Additionally, I have headed Miami-Dade County's 
Office of Emergency Management (OEM). In that role I have been 
responsible for mitigation and preparedness for major incidents 
including nuclear incidents, weather emergencies (hurricane, floods, 
tornadoes), large immigration influx, hazardous materials emergencies, 
or multiple-casualty accidents. Having served in both of these 
capacities, I am absolutely convinced that Director Allbaugh is correct 
in his effort to strengthen cooperation and understanding between the 
fire and emergency management communities.
    Whether in response to a major fire, as incident commander for 
Hurricane Andrew or in response to the crash of ValuJet 592, I have 
seen first-hand the need for communication and cooperation during the 
planning, response, recovery and rebuilding phases after disasters. As 
fire services across the Nation respond to emergency incidents, they 
need strong support from local, state and federal emergency managers to 
provide coordination and logistical resources quickly. Lives depend on 
that cooperation.
    The United States Fire Administration has developed a series of 
goals for the next 5 years. They are: to reduce the loss of life from 
fire by 25 percent for children under 14; to reduce by 25 percent the 
loss of life by fire of Americans 65 years of age or older; and to 
reduce the number of firefighter fatalities by 25 percent. The U.S. 
Fire Administration is also committed to respond to emergent issues. 
For the past 6 weeks we have encountered a truly emergent issue, 
domestic terrorism. USFA's work on terrorism began several years ago 
with the development of training programs, response guides and 
outreach. I can promise you and the American people that if confirmed I 
will work with Director Allbaugh, Governor Ridge and the emergency 
services community to accelerate that effort and buildupon our past 
successes. We will work to provide the training and the tools to get 
the job done.
    The fire departments across the Nation need to be an integral part 
of the planning, training and policy development for terrorism 
preparedness. While there is a general acknowledgement that the law 
enforcement community has a significant deterrence and investigatory 
role, it is also true that the fire services are the first on the 
scene, and therefore the first at risk. Any future considerations on 
training and funding for equipment must take this into account.
    Quality, robust and consistent communications capabilities must be 
developed and implemented for the fire services. As a Nation we need to 
strive to provide the communications infrastructure necessary for 
multiple agency communications. Currently there is no secure means to 
provide first responders with important, un-compromised information. 
Obviously, this void could severely hamper effective fire service 
operations in a terrorist environment.
    Another communications need involves incident management and 
coordination. We have to communicate with all response and supporting 
agencies at every level of the Federal Response Plan, which is the 
framework for the federal support that will be needed in terrorist 
events. All local fire and public safety agencies and their staffs 
should be aware of the Federal Response Plan and how it meshes with 
their state, county and local planning. There should also be training 
and exercises to ensure understanding and ability to work effectively 
within this structure.
    We cannot manage incidents with entities that have unique or 
different incident command or incident management systems (ICS/IMS) or 
with those entities not operationally conversant with the standard 
incident management system. We need to work toward an institutionalized 
operating, common ICS/IMS throughout the country.
    Response and preparedness for terrorism is a critical issue for 
USFA, but the other goals I have already outlined must also continue. 
Every week we lose hundreds of Americans to fire. Young and old are 
most at risk. Our firefighters, who respond at great risk every day, 
should not have to give their lives. We honor their sacrifice, but even 
one is too many.
    We need to buildupon the programs we have begun in these critical 
areas. We need to focus on developing community-based hazard response 
planning that includes fire response and fire prevention as a critical 
component. Toward that end USFA has a goal, in the next 5 years, is to 
identify 2500 communities and work with them to develop a multi-hazard 
risk reduction plan.
    The Assistance to Firefighters Grant Program is a key element in 
providing assistance to our nation's fire service. Since the terrorist 
attacks, the Senate has passed the Defense Authorization bill with an 
authorization of $600 million, $800 million and $1 billion respectively 
over the next 3 years. The bill is currently in conference. If this 
program were taken to be fully authorized, USFA would also need 
authorization for additional salaries and expenses to efficiently 
administer the program. It would also be important to give the agency 
the authority to develop the program with greater flexibility to 
address emergent needs.
    As Director Allbaugh has stated, ``firefighters are the first in 
line for budget cuts and the last in line for recognition. This must 
stop.'' This program should not, however, replace the primary 
responsibility for funding and support, which lies with the local and 
state governments. Federal assistance should be supplemental and should 
be directed to the areas and programs in greatest need.
    State and local support of the fire services must be increased and 
the federal role should be to foster that participation. Incentives to 
local governments need to be developed and enacted. Working together, 
the fire services, emergency managers, and public officials at all 
levels of government, federal agencies and the Congress, we can make 
tremendous strides on solving these problems.
    To my friends and partners in the fire and emergency services 
community, I ask for your help and your unity. The fire services 
community has had many voices, many successes and some failures. If 
nothing else, September 11 should have shown all of the fire service 
organizations that we need to work together to solve our problems, to 
respond with one voice and to acknowledge that some of our differences, 
while important, pale in comparison to the importance of our mission: 
to protect the public.
    It is not a question of volunteer vs. career, or management vs. 
labor. It is not a question of fire vs. law enforcement. The question 
is, can we work together to make a difference in the lives of every 
single American, find the areas we can agree on quickly and on those 
issues on which we differ, put aside the rancor and the posturing and 
work together to address and solve them? I know the answer is ``yes'' 
and I pledge my commitment, should I be confirmed, to work with all of 
you to build those bridges and resolve the pressing issues that face 
us.
    The USFA has made great strides in the past 2 years. The 
reorganization recommended by the Blue Ribbon Panel and implemented by 
the staff of USFA under the leadership of Ken Burris has reenergized 
USFA and transformed it into a dynamic research, training and 
information agency. I look forward to the opportunity to buildupon that 
success.
    I want to again thank the Committee for its support and for the 
opportunity to testify today. I will be happy to address any questions 
you might have.
                                 ______
                                 
                      a. biographical information
    1. Name: Robert David Paulison.
    2. Position to Which Nominated: United States Fire Administrator.
    3. Date of nomination. Announcement of intent to nominate was 9/20/
01.
    4. Address: (Information not released to the public).
    5. Date and Place of Birth: 2/27/47 Miami, Fl.
    6. Marital Status: Married, 30 years. (Happily)
    7. Names and ages of children: Amy Paulison Gupta (28) Beth Marie 
Paulison (24).
    8. Education: North Miami High School (1965); Miami Dade Community 
College (AA degree 1968); Florida Atlantic University (BA 1970).
    9. Employment record: 1971-1978 Firefighter, City of North Miami 
Beach 17150 N.E. 19 Ave. North Miami Beach. 1978-Present Miami Dade 
Fire Rescue Department worked all Ranks; Firefighter, Lieutenant, 
Captain, Chief Fire Officer, Division Chief, Assistant Chief, Deputy 
Director and as Fire Chief since 1992.
    10. Government Experience: I am currently the Fire Chief for the 
Miami Dade Fire Rescue Department. I served as a consultant to the 
Defense Science Board for Summer studies in 1997, 2000 and 2001. I was 
part of a vice-presidential delegation sent to Russia in February of 
1996 to observe their Urban Search and Rescue Teams.
    11. Business Relationships: Board of Directors of the American Red 
Cross Dade and Monroe Chapters; Cabinet Member of the Dade County 
United Way; Board of Directors Chief Fire Officers Association of Miami 
Dade County; Honorary Board Member of the University of Miami/Jackson 
Memorial Hospital Burn Center. (These are all non-profit or charitable 
Organizations and I serve at no compensation. I am also a member of 
these organizations so some of them apply below.
    12. Memberships: International Association of Fire Chiefs; National 
Fire Protection Association Chief Fire Officers Association of Miami 
Dade County, Florida Fire Chiefs Association.
    13. Political affiliations and activities: (a) I have never held 
any office for any political party. I have never held or been a 
candidate for any political office. (b) I am a registered Democrat. I 
have never held an office or provided any services to any political 
party or election committee. (c) $250.00 donation to Michael Freeman 
Campaign(D) when he ran for Governor of Minnesota. $250.00 donation to 
Burt Locke(R) for his campaign for Attorney General of Florida 
(donation is by my wife). These are the only campaign donations either 
my wife or I have made.
    14. Honors and Awards: Florida Fire Chief of the Year, fellowship 
to Harvard's State and Local Government Program; R. David Paulison Day 
for Miami Dade County.
    15. Publications: I wrote one article for Fire Chief Magazine on 
our response to Hurricane Andrew in June of 1993. (attached)*
---------------------------------------------------------------------------
     The information referred to was not available.
---------------------------------------------------------------------------
    16. Speeches: I have given numerous speeches during my career but 
most were not from a written script. All were fire service related and 
non-controversial.
    17. Selection: I believe I was chosen for this position because of 
my national reputation in the fire service. I have managed several 
large disasters in my community (hurricanes, airplane crashes, 
tornadoes, floods, etc.) I also oversee The Office of Emergency 
Management in Miami Dade County. I was the President of the 
International Association of Fire Chiefs (1996-1997). I manage a 
department of over 2,000 people with a budget of over $200,000,000. I 
believe my experience, skills and excellent reputation qualifies me for 
this appointment.
                  b. future employment relationships:
    1. I will sever all connections with my present employer, business 
firms, and business associations and organizations if confirmed by the 
Senate.
    2. I have no plans, commitments or agreements to pursue outside 
employment, with or without compensation, during my service with the 
government.
    3. I have no plans, commitments or agreements to resume employment, 
affiliation or practice with my current employer.
    4. No one has made a commitment to employ my services in any 
capacity after I leave government service.
    5. If confirmed, I expect to serve out my full term or until the 
next presidential election whichever is applicable.
                  c. potential conflicts of interest;
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers: (a) I will have a retirement payment from the 
state of Florida for my 30 years in the fire service. (b) I have a 
deferred compensation account through Miami Dade County payroll 
deductions. I will no longer contribute to this program if I am 
confirmed. (c) Through the state of Florida I will receive a lump sum 
payment from a Deferred Retirement Option Plan when I resign my current 
position if confirmed.
    2. List any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated: I am a member of the 
International Association of Fire Chiefs and a past president; I 
believe that the IAFC has some contracts with FEMA. I will resign from 
the IAFC, if confirmed.
    3. Describe any business relationship, dealing, or financial 
transaction, which you have had during the last 10 years, whether for 
yourself, or on behalf of a client, or acting as an agent, that could 
in any way constitute or result in possible conflict of interest in the 
position to which you have been nominated? I cannot think of any 
conflicts I might have.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation affecting the 
Administration and execution of law or public policy? The International 
Fire Chiefs Association supported legislation to pass the Fire Fighter 
Assistance Grant Program.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: I have submitted a ``Conflict of Interest Statement'' and have 
included it in this packet.
    6. I agree to have written opinions provided to the Committee by 
the FEMA Ethics Official and by the Office of Government Ethics 
concerning potential conflicts of interest or any other legal 
impediments to me serving in this position.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association disciplinary 
committee, or other professional Group? No.
    2. Have you ever been investigated, arrested, charged or held by 
any federal, state, or other law enforcement authority for violation of 
any federal, state, county, or municipal law, regulation or ordinance, 
other than minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than minor traffic 
offense?No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. I will ensure that my department complies with deadlines set by 
congressional committees for information.
    2. I will ensure that my department does whatever it can to protect 
congressional witnesses and whistle blowers from reprisal for their 
testimony and disclosures.
    3. I will cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee.
    4. To make sure that regulation issued by my department comply with 
the spirit of the laws passed by Congress I must review and understand 
what those laws are and mean and work closely with congressional 
members to comprehend what the intent of those particular laws are.
    5. The mission of the U.S. Fire Administration if to reduce life 
and economic losses due to fire and related emergencies through public 
education, training, technology and data research initiatives in 
coordination with other federal agencies and in partnership with fire 
protection and emergency service communities. Its major programs are 
divided into four major areas: Public Education.--Develops and delivers 
fire prevention and safety education programs in partnership with other 
federal Agencies; Training.--Promotes the professional development of 
the fire and emergency response community and it's allied 
professionals. The National Fire Academy develops and delivers 
educational and training courses to supplement and state and local fire 
service training programs. Technology.--Works with the public and 
private groups to promote and improve fire prevention and life safety 
through research, testing and evaluation. Generates and distributes 
research and special studies on fire detection, suppression and 
notification systems, and on fire and emergency responder health and 
safety. Data.--Assists state and local entities in collecting, 
analyzing and disseminating data on the occurrence, the control and the 
consequences of all types of fires. The National Fire Data Center 
describes the Nation's fire problem; proposes possible solutions and 
national priorities; monitors resulting programs; and provides 
information to the public and fire organizations.
    6. I am willing to appear and testify before any duly constituted 
committee of the Congress on such occasions as I may be reasonably 
requested to do so.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated? I 
have over 30 years in the fire service. During that time I have served 
in almost every capacity in my department. I started as a street 
paramedic and firefighter and worked my way up through the department. 
I have served the last nine years heading up the largest fire rescue 
department in the Southeast United States. While in that position I 
handled some significant disasters such as Hurricane Andrew and the 
Value Jet crash in the Everglades. I also served as the President of 
the International Association of Fire Chiefs which has over 12,000 
members in 27 countries. I oversee one of the most experienced Urban 
Search and Rescue teams in the world. This team is on of only two that 
respond outside the United States. Fairfax, Virginia being the other. 
Shortly after Hurricane Andrew, Emergency Management for Miami Dade 
County was turned over to me for restructuring and rebuilding. We have 
made it a model for the rest for the country. We were also one of the 
first fire departments to start using thrombolitic or clot busting 
drugs on our paramedic rescue vehicles. We have been able to save 
hundreds of lives that in the past would have not survived. I also have 
served as a consultant to the Defense Science Board and worked on 
issues such as biological terrorism and chemical warfare. I have a 
bachelor's degree from Florida Atlantic University and completed 
Harvard's State and Local Government Program. This program has given me 
great insight into public policy formulation.
    2. Why do you wish to serve in the position for which you have been 
nominated? It is important to have a fire service related person in 
this position; someone who not only has front line experience but has 
handled the administrative duties of a local fire Department and 
understands the issues local fire departments face each and every day. 
This person also needs to have handled or at the least, been exposed to 
major incidents. This is to ensure that whoever is in that position can 
comprehend the impact on the local community. The Fire Administrator 
should have national recognition and respect from our nation's fire 
service. I have those experiences and qualifications and am ready to 
serve in this capacity. With the recent attacks on our country and the 
events that have followed, I have never been so proud to be a 
firefighter and never so ready to serve my country.
    3. What goals have you established for your first two years in this 
position, if confirmed? The first goal is to set up a timetable to 
review our mission statement and our strategic plan on a regular basis. 
We need to make sure that our mission statement correctly address the 
current fire problems. Goal two is to re-establish the confidence the 
fire and emergency services should have with the Fire Administration. 
Goal three is to increase the visibility of the Fire Administrator at 
our large disasters whether natural or manmade. The fire service is the 
first on the scene of disaster and the ones most visible by the public. 
The Fire Administrator should be visible to first responders. Goal 
three is to work toward having a 100 percent participation from our 
states in the National Fire Incident Reporting System. The information 
that could be gleaned from a complete and accurate set of data is 
invaluable in preventing fires and reducing injuries and death among 
our firefighters and residents. Goal four would be to make research and 
development a priority. We need better protective clothing, a workable 
firefighter accountability system. Right now we cannot track our 
firefighters once they enter a building. It is only through a manual 
system that we even know who is in the building and who isn't. Once 
inside, we loose track where they are and how they are doing 
physically. We also should be looking at better ways to protect the 
public from the ravages of fire through advances in technology similar 
to the impact that smoke alarms had. There are existing technologies 
that could be transferred to use by first responders. A viable research 
and development program can identify those and assist in getting them 
on the front line. I also want to look closely at expanding off campus 
training for firefighters. Our state fire training programs could be 
expanded and provide quality training to more firefighters at a lower 
cost. Probably one of the more important issues that needs attention is 
developing a better system of getting feedback and input from our 
stakeholders. If confirmed, I will be meeting with USFA staff and our 
stakeholders to implement such a system
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I don't believe I am lacking any needed 
skills to handle this position. I have the Education, experiences and 
desire to do the best job possible. I am quick to glean insight and 
wisdom from those who have been in the system and am a quick study.
    5. Who are the stakeholders in the work of this agency? The 
nation's fire service is a stakeholder but is very diverse. We have 
volunteers, combination, small, medium and large metropolitan 
departments. There are fire marshals, fire service instructors, and 
haz-mat technicians. There are also numerous fore service organizations 
such as, International Association of Fire Chiefs, International 
Association of Fire Fighters, the National Fire Protection Association 
and many others. There are also organizations that are not, on the 
surface, fire related but have a close relationship with the Fire 
Administration's mission. The Consumer Product Safety Commission who in 
the past has worked on the fire resistant sleepwear and child proof 
lighters, the National Safe Kids Campaign, the National Institute for 
Standard Techniques and the AARP. Our children and our older adults are 
at significant risk for be injured or killed in a fire and these 
organizations have education programs that address these risks. These 
along with the Congress, and the people of this country are some of the 
stakeholders.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders? I see my job as facilitating how their 
roles fit into our mission and how our roles fit into their mission. My 
role is also to make sure we maintain a close, professional 
relationship with all of our stakeholders.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed to ensure that your 
agency has proper management and accounting controls? I am responsible 
for assuring the agency operates in a business like manner. Employees 
must know what is expected of them and what the fiscal constraints are. 
The budget requests and expenditures must be in concert with the 
strategic goals. In fact, the Strategic Plan must drive the budget not 
the other way around. Regular meetings with staff to receive input and 
regular review of what is expected and a systematic review of our 
strategic plan and budget will ensure we operate in a proper manner and 
within the guidelines of our budget. (b) What experience do you have in 
managing a large organization? I currently manage a 2,000-person 
department. These employees are spread out across 1900 square miles and 
they operate out of 55 facilities on three different shifts. My budget 
is over 200 million dollars. In the nine years I have been the fire 
chief, I have never over spent my revenues. I not only manage the 
Miami-Dade County Fire District, I also manage Emergency Management, 
Air Rescue (3 trauma transport helicopters), fire service at Miami 
International Airport, and fire service at Miami's seaport. I have also 
managed several large disasters in our community, Hurricane Andrew, 
Value Jet crash, Fine Air crash, several floods, tornadoes and several 
large storms. I also have to balance several political jurisdictions. I 
have a County Commission consisting of 13 commissioners elected in 
single member districts, a county manager, an executive mayor and 5 
fireboard commissioners that are elected in single member districts. 
Along with countywide fire service I also provide fire and rescue 
services to 25 cites. That adds 25 mayors, councils, etc. If I were not 
a good manager, I could not have survived the last 9 years as fire 
chief.
    8. The Government Performance and Results act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Strategic planning with performance goals 
provides a framework for the organization's mission in an internally 
consistent, sequential and systemic manner. A well-conceived strategic 
planning system provides a reference point for evaluating performance, 
productivity, and progress in a consistent and uniform way. Performance 
measures evaluate how well and to what extent you meet your primary 
service areas. Identifying performance goals and reporting on the 
progress of meeting those goals challenges the employee to continually 
improve performance and proactively create their future. It also allows 
anyone who reads the report to know where the department is going. It 
identifies the best approaches for achieving the department's goals and 
allows all to understand the political, economic and service 
environment in which the department operates. The success of 
identifying and reporting on the achievement of performance goals has 
been validated through a growing number of programs for government and 
non-profit services. (b) What steps should Congress consider taking 
when an agency fails to achieve its performance goals? Should these 
steps include the elimination, privatization, downsizing or 
consolidation of departments and/or programs? This is a question that 
all managers deal with. First you need to look at the goals. Maybe they 
were set too high and were not achievable. There could be management 
problems or maybe the agency does not have the capacity or finances to 
function properly. So, there may need to be a change in management or 
restructuring of the agency or a close look at private business 
capability of performing the functions of that agency. It could be as 
simple as setting realistic goals. One major problem with taking action 
when an agency fails to meet its goals is that it could stifle employee 
creativity and very may hinder a manager from setting high goals that 
pushes the staff to perform at its best. If we are having over 100 
firefighters killed each year and set a goal of only fifty for next 
year but end up with 75, we haven't reached our goal but had a 
significant reduction in firefighter deaths. Should that manager or 
agency be ``punished'' for not reaching their goal or should they be 
rewarded for reducing firefighter deaths by 25 percent? The answer is 
that if an agency or department does not reach the set goals the first 
step is to find out why and then decide what the next course of action 
should be. (c) What performance goals do you believe should be 
applicable to your personal performance, if confirmed? I would be 
responsible for the smooth, business-like operation of my area. I 
should be held fiscally accountable. It is my responsibility to make 
sure that the primary tool for the day to day management is the 
strategic plan and the budget. I am responsible to empower staff and 
make sure they have the needed resources available to achieve stated 
goals and performance measures. I must be held responsible to hold 
staff accountable for achieving those goals. I should also be 
responsible to keep an open line of communication with all of the 
stakeholders.
    9. Please describe our philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I am a goal-oriented 
manager who is supportive of staff. I encourage employees to take risks 
and provide them with an environment that provides security. If you 
don't provide the security, they won't take risks. I make it very 
clear, to staff, what is to be accomplished but allow them flexibility 
to decide the best way to get it done. I usually avoid giving orders, 
instead, make requests or make suggestions. I find that this works 
better at getting employee buy-in than barking orders. I give my staff 
all the support I can and assume that they will do the best they can; 
they usually do. One important thing, there are times when you simply 
take charge and make decisions yourself. In times of crisis or when a 
decision is needed immediately there is no substitute for a strong 
leader. Someone who is afraid to make decisions or take charge should 
not be in a position of leadership.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I do have some experience working 
with Congress. I testified before Senate and House committees on 
dealing with the aftermath of Hurricane Andrew. I served as the 
President of the International Association of Fire Chiefs (1996-1997) 
and had an opportunity to work with several members of Congress during 
that period. I served as a consultant to the Defense Science Board in 
1997, 1999 and 2000. I dealt with issues of homeland defense regarding 
biological terrorism and chemical warfare.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Inspector General's office is a management tool 
to assure that programs are operating efficiently, effectively and 
properly. It can be one of the most valuable tools a manager has.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. To make 
sure that regulations issued by my department complies with the spirit 
of the laws passed by Congress, I must review and understand what those 
laws are and mean. I will work closely with Congressional members to 
comprehend what the intent of those particular laws is.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider priorities? Please state 
your personal views. There are a lot of needs in the nation's fire 
service. I feel that the Assistance to Firefighters program and the 
grants associated with it need to continue. Terrorism response training 
needs to go much further than we have. Our nation's fire service must 
be ready and able to handle acts of terrorism. This includes training 
and equipment and information. Sometimes it is difficult for local 
fire. departments to have the same access to critical information that 
is available to police departments. If confirmed, I plan to set up a 
meeting with the leaders of the Urban Search and Rescue Teams that 
responded to New York and the Pentagon and the New York Fire Department 
to see what we needed on those incidents that we did not have 
available. This will include existing equipment and technology issues 
that we do not have but need. Chemical warfare and biological terrorism 
is a real threat to this country. Most of our fire departments need 
significant training in these areas, as they are an integral part of 
our homeland defense. After what happened on September 11 we need to 
underpin the operational capability of nation's fire service. One way 
to do this is to set aside a portion of radio spectrum to be used only 
by the fire service. There is a shortage of this spectrum and once it 
is gone it is extremely difficult to retrieve.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation. At this time there is only one program that has any 
discretionary spending under USFA and that is the Assistance to 
Firefighter Grant Program. This program is almost completed. However if 
this program is funded beyond the 2002 budget year, we (if confirmed) 
will include the stakeholders in setting up criteria, in an open 
fashion, for application and for evaluation. This will ensure that 
there is an equitable process of distribution based on the established 
criteria that includes national priorities. If confirmed, I will make 
sure this process is in place in a timely manner.

    Senator Wyden. Mr. Paulison, thank you. Both of you have 
given excellent presentations.
    Let me go right to the questions. First, on the issue of 
terrorism, Dr. Bement. We had our hearing for Dr. John 
Marburger, as you know, who will be heading up Science and 
Technology, and we discussed the need for a coordinated effort 
among the federal science agencies in conducting research to 
combat terrorism. We were concerned about the General 
Accounting Office report that showed that often the left hand 
does not talk to the right hand. They said, for example, that 
the Coast Guard and the Defense Department were doing the same 
research on chemical weapons detection for cruise ships. So you 
end up taking dollars away from critically needed functions 
because of duplication, and you do not have the benefits of the 
sharing of information.
    Why do we not start by having you describe how you see NIST 
being a part of this fight against terrorism. You have obvious 
areas with respect to technical competencies, such as quantum 
computing, encryption, sensing tiny amounts of substances. 
Describe for us, if you would, what you see as the agency's 
role in combatting terrorism?
    Dr. Bement. Thank you, Senator. You have already outlined a 
couple very important areas. There is very active work at NIST 
and there was even before September 11th in developing advanced 
sensors for detecting biological and chemical agents, as well 
as nuclear materials. You mentioned encryption standards. There 
is also a very large agenda in building and fire research. 
Almost every laboratory at NIST has a role to play and also has 
significant efforts under way, including the Advanced 
Technology Program, where there are some initiatives that 
directly address needs for homeland security.
    I would like your permission, if I may, to submit some of 
these initiatives, which is a rather long list, for the record 
so that you will have first-hand listing of the various 
initiatives that are currently under way.
    Senator Wyden. We will hold the record open for that. That 
would be very helpful.
    [The material referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7380.002
    
    Dr. Bement. Thank you very much.
    Senator Wyden. On the question of fire research, as I 
mentioned, we looked at fire services issues in some depth not 
long ago. We heard at our hearing testimony from a number of 
witnesses, including the New York Fire Department, in which 
they described the need for the development of performance 
standards for firefighter equipment. They said at this point 
there are not any standards by which they can credibly evaluate 
the new equipment, particularly the equipment containing 
advanced technologies.
    After we heard that testimony, I wrote Secretary Evans 
asking that NIST look into this issue and set up a program to 
deal with it specifically, such as the one that now exists at 
NIST for law enforcement services and equipment.
    These two agencies have a long history of cooperating. 
Could you state for the record whether you are willing to put 
together a program that addresses the concerns raised by the 
firefighters at the Subcommittee's recent hearing?
    Dr. Bement. Absolutely, Senator. I consider this to be a 
very high priority for NIST, not only in providing the 
technology but also the standards. The interaction with the 
U.S. Fire Administration under our existing Memorandum of 
Understanding is already well along. Dr. Jack Snell is here, 
who is the Director of the Building and Fire Research 
Laboratory, and he has been very active in this area with the 
U.S. Fire Administration. I look forward, if confirmed, to 
working with Mr. Paulison in actually carrying out that agenda.
    Senator Wyden. Tell me then, because that is very helpful 
and very constructive, to have your position with respect to 
putting together a program on the standards for the equipment, 
what other areas of research do you think are promising as it 
relates to NIST in terms of getting the next generation of 
advanced firefighting technology out to the firefighters?
    Dr. Bement. There are two or three areas that I think are 
paramount. One is in open systems communications, so we do not 
have the difficulties that we had in New York with the World 
Trade Center disaster. Better protective equipment, better 
detection equipment so that one can do a better job of 
detecting victims of fire, and better early warning devices in 
some of the buildings are also required.
    Some of the building codes are pretty old. Even the World 
Trade Center, which is a relatively new building, was built 
according to building codes that probably were put in place in 
the 1950's. I think updating building codes in the interest of 
preventing the spread of fire, and also early warning and 
detection of fire is just absolutely paramount.
    Senator Wyden. Let us talk for a moment about personnel 
issues. My understanding is you have got one-quarter of your 
people, something like upwards of 800 people, eligible for 
retirement this year. Suffice it to say, again and again we are 
getting these reports about the great need for talented, 
dedicated people in federal service. GAO has cited the human 
capital challenges as a top concern affecting many federal 
managers.
    How do you plan to address this issue so that NIST has an 
adequate supply of young researchers ready to step in? I would 
like to know if you plan to expand your postdoctoral program or 
other kinds of approaches so that we can attract more young 
researchers.
    Dr. Bement. Yes. NIST is rather unique among many federal 
laboratories in that it does have a very active intern program 
through the national Research Council postdoctoral fellowship 
research program, as well as a Summer Undergraduate Research 
Fellowship program to bring budding scientists in their 
undergraduate years into NIST, not only to become motivated and 
also to get the spirit of the place, but also to consider NIST 
for their future career.
    As a result, it has been the tradition of NIST for some 
years to build from the bottom, to select bright young talent 
that infuse new ideas and new energy into the Institute, and we 
have people waiting in line to fill some of the senior 
positions as people retire. So this evergreen character of NIST 
is something that we treasure and it is something we try and 
promote very actively. If confirmed, I want to continue to keep 
that a very active program.
    I should say parenthetically that the summer undergraduate 
program is absolutely wonderful in helping us work our 
diversity opportunities, because we bring a very diverse mix of 
students from various colleges from around the country and it 
gives us a leg up in trying to build more diversity in our 
scientific and technical ranks. That I would also give very 
high priority if confirmed.
    Senator Wyden. In terms of your resources, I would like to 
know whether you think you have got enough resources and 
facilities to continue the kind of work that has produced the 
Nobel Prizes, the repeated instances where you have won, and 
whether you have the resources to deal with the relationship 
with the Technology Administration, which as you know has 
always been unique and a big disparity between NIST and the 
Technology Administration.
    Why do you not talk for a moment so we have it on the 
record how you are going to approach this question of the 
adequacy of resources.
    Dr. Bement. Well, for some years now NIST has not been 
idea-limited, it has been resource-limited, funding-limited. So 
it really takes inspired management, inspired leadership, to 
try and restructure the program almost on the run in order to 
structure programs with the right talent and the right 
resources to succeed and to succeed cost-effectively in a 
timely fashion.
    So in many cases we are at risk of dropping some activities 
that are almost in the area of public trust in measurements and 
standards, in the interest of moving into some of the new 
technology areas and some of the new needs in standards and 
measurements. This has been a continuing problem. Fortunately, 
we have seen a slight plus-up in our budget this year, which we 
are very grateful for.
    But through our strategic planning, I hope I can continue 
to keep this Committee aware of what cannot happen if we do not 
continue to get the support that we need.
    Senator Wyden. As I told you yesterday, I have a special 
interest in the Bayh-Dole statute.
    Dr. Bement. Yes, sir.
    Senator Wyden. I want to discuss that with you for a few 
moments. As you know, Bayh-Dole and Stevenson-Weidler are 
essentially the two statutes that govern cooperative research 
and the licensing of federal inventions. I am of the view that, 
at this point, the statute does not work anywhere near as well 
as it could for all of the stakeholders, businesses, 
universities and taxpayers. I am interested particularly in the 
involvement with the laboratories as it relates to universities 
and businesses. They are constantly talking to me about delays 
and the amount of paperwork that they have to slog through to 
be part of the statute.
    When you look at the numbers in terms of return on 
investment research, they look pretty paltry. I have, as I 
indicated to you yesterday, made it clear that I want to see 
the Administration look again at this statute and look at ways, 
working with all of the stakeholders, that it can be improved.
    I would like to have you tell me how you see the tech 
transfer system working at NIST, given the fact that your 
operation, as we talked about yesterday, is one piece of the 
puzzle. You have got laboratories, universities, businesses, 
and taxpayers. I would like to have you describe to me how you 
think it is working.
    Dr. Bement. Well, I think it is working well. We have both 
an intramural and an extramural outlook when it comes to 
technology transfer and the application of Bayh-Dole. I think 
the preponderance of our work is done in the public domain, so 
that we try and make the results available to the public. But 
we also patent our intramural research. We also develop 
licensing royalty streams from intramural research. That seems 
to be going well. I do not know that there is a problem there.
    In the ATP program, Bayh-Dole is not an issue. But in some 
of our CRADA's, where we do have cooperative arrangements with 
universities and also with other federal laboratories and with 
industry, it does come up and it is a major issue.
    I must confess, I did go through the statute and I agree 
with you that there is nothing in law that I could find that 
provides a return stream to the government for investment in 
inventions. But I also have to confess I never looked at it 
from that standpoint. I looked at it more from the benefits to 
universities or the benefits to industry.
    It turns out that the Administration of Bayh-Dole is part 
of the technology transfer responsibilities of the Technology 
Administration, and if confirmed I will follow up your 
suggestion and explore that with Secretary Bond. I would very 
much like to have an opportunity to discuss it with Floyd 
Kvamme at the first opportunity.
    Senator Wyden. I appreciate that, because my sense is we 
can do a lot better by all of the stakeholders. I think we can 
streamline the red tape and the bureaucracy that has been 
frustrating for businesses and universities, and I think we can 
shore up the return on investment for taxpayers. That is the 
way I would like to approach it. Secretary Bond is a good man, 
and I appreciate your taking it up with him and with Floyd 
Kvamme, if you will do that and get back to us.
    In fact, I would like you, if you would, could you get back 
to us within 90 days after you are confirmed and give us your 
sense of how NIST, to the extent you can, and the 
Administration is willing the proceed as we look to try and 
strengthen? I would like to see if we could do it 
administratively if possible. I am always anxious to avoid 
getting entangled in legislative rewrites of complicated 
statutes.
    But, I would like to see us take this out through the prism 
of each of the stakeholders--universities, businesses, 
laboratories, and taxpayers. I am convinced we can do a lot 
better. Is that fair enough, 90 days; give me a sense of what 
you are picking up?
    Dr. Bement. Can we make it 90 days from confirmation?
    Senator Wyden. That is what I mean, yes.
    Dr. Bement. Well, Senator, I would be glad to.
    Senator Wyden. We are going to get you confirmed quickly so 
you can go to work on these and other pressing matters.
    Dr. Bement. Yes, Senator, I would be happy to stay close 
with you and to take on that charge.
    Senator Wyden. Very good.
    Well, thank you and I think you are going to be spared a 
little bit now while we will go to Mr. Paulison.
    A few questions for you. I think, given the fact that you 
are there in Miami-Dade, you have seen first-hand what local 
fire departments are up against. Tell us what you think the 
biggest needs are and what your priorities would be at the U.S. 
Fire Administration to address, the big priorities?
    Mr. Paulison. There are several needs, and a couple that I 
would like to address. Since you talked about technology, one 
is firefighter accountability. We do not have a method to track 
our firefighters. We know when they go in a building, when they 
come out of a building. Once they are inside the building we 
lose them.
    Also, with our forestry firefighters. We know the 
technology is there for that with GPS, but we are looking for 
our research friends over here to help us design an accurate 
ability to track our firefighters, where they are, what kind of 
condition they are in. We should be able to monitor their 
health, their blood O2 saturation, their location, and all of 
those things, and monitor it from a single place.
    Communications is another major issue that we are going to 
tackle. We have to talk about interoperability, what we saw in 
New York. We dealt with the same thing in Hurricane Andrew, 
where we had these major incidents and we simply cannot talk to 
each other, and not just fire department to fire department, 
but we need to be able to talk to the police and the mayor's 
office and the manager's office.
    That technology is there at the local level, where we can 
do interface boxes to patch in from one channel to another or 
one frequency from another, whether you are on 800 megahertz or 
UHF, but we are simply not doing that yet.
    The second part of that----
    Senator Wyden. Let me, if I might--I am very much 
interested in this area. We are going to have a specific 
Subcommittee hearing to look at some of the technology aspects 
of what happened on September 11th. You may have heard that I 
have actually suggested that we look at something along the 
lines of a technology equivalent of the national Guard, a kind 
of effort to mobilize people in the private sector so that we 
have got the equipment and the brains and the talent, 
essentially, ready to go.
    Tell me, if you would--and sort of step back from what you 
said earlier--what the problems were in terms of 
interoperability when people tried to be in contact with each 
other in that situation and what you think we might do to deal 
with it?
    Mr. Paulison. The problems we had were--obviously, you have 
seen it before--where more than one agency comes together on a 
scene and you cannot communicate. We have resolved that locally 
by setting up a unified command post, where you have somebody 
from each agency in that command post with a radio for their 
particular agency and they pass information back and forth.
    That is a very poor way to do that. So we need some method, 
and I think the long-term solution is a country-wide 
communication system. That is going to be long-term. We are 
talking about setting up satellites and towers across the 
country, where we can have an emergency frequency that 
everybody can tune into when they have a disaster. To me that 
is the long-term fix.
    Senator Wyden. You know, the satellites did not go down on 
September 11th. Everything else crashed, but Global Star, 
Iridium, all those did not.
    Mr. Paulison. It works all the time, right.
    The other system that I was talking about earlier was by 
having interface boxes where a local community can interface 
from one agency to another even if they are totally different 
systems. They can be on 800 megahertz or a UHF system. I am not 
a technician, but I know there are boxes available that they 
can--where you can patch that together and go to one emergency 
frequency for that particular event. I think that is the short-
term fix.
    Some of the major departments may be able to afford these, 
but there are literally hundreds of departments across this 
country that simply are not going to have the money to do this, 
and I think that is where the federal government and state 
governments need to step in and help.
    The other issue with communications is also the amount of 
frequency that is available for us to use for public safety. We 
need to set aside a certain amount of spectrum for public 
safety use only and say that, not sell it off or do anything 
else with it, but save it for public safety.
    Senator Wyden. Now, I gather that you tried to do some of 
these things in the aftermath of Hurricane Andrew. I read the 
article that you wrote in ``Fire Chief'' magazine, and it talks 
about your prepositioning platform aerials around your county 
and generators and portable repeaters, in effect, a backup kind 
of communications system. I gather it was really the only thing 
you had for several days.
    Do you think it would be helpful to have people from the 
private sector in the communications and technology sector in 
position to try to assist you, a sort of talent pool that you 
could call on to re-establish normal communications?
    Mr. Paulison. Absolutely. That is where the expertise is. 
That is where the technology is, in the private sector. If we 
could have--this is the first I have heard of this idea you are 
talking about, but it is a tremendous idea, to have a group of 
private sector people that have that technology, have the 
equipment, and have the ability to come in and assist a local 
government when they are dealing with a disaster like this.
    Senator Wyden. Good, thank you. We will be looking to work 
with you as we go forward with the hearings in an effort to 
develop an initiative.
    Mr. Paulison. Yes, sir, we would like to be a part of 
those.
    Senator Wyden. Very good.
    Tell us a bit about the FIRE Act grant situation. As you 
know, $100 million was awarded. I gather that the requests were 
many, many times the amount of money that was awarded. There 
are some questions about whether you have the dollars to 
administer the program. In a sense, you are going to be coming 
at it from two standpoints. You are a local fire chief, so you 
can tell us a bit about what it is like to go through the 
bureaucracy and the red tape and what you can do to improve the 
process there, and then I am sure you have had some thoughts 
already about what you will do after confirmation.
    Given the importance of the program, why do you not touch 
on both issues. What could be done that would really be helpful 
to a local fire chief, since you hale from those ranks, and 
then what seems doable to you in terms of the Washington, DC., 
situation?
    Mr. Paulison. From a local level, the application process 
was cumbersome. There was not enough flexibility. Sometimes 
there were things that we felt we needed, but there was not a 
slot for us to fill in to try to apply for a particular issue. 
An online process would probably speed things up and make it a 
lot easier on both ends.
    Senator Wyden. You cannot apply online for this?
    Mr. Paulison. Not yet. That is one of the things we are 
proposing.
    But for a local fire chief or a local fire department to be 
able to do an online application and then for the U.S. Fire 
Administration to be able to process that online would save a 
lot of red tape and speed the process.
    The application process needs to be a little bit longer. It 
is too short. There is too much detail, too much work you have 
to do. It is stuff that is needed, and we need to extend that 
application process a little more.
    From the U.S. Fire Administrator's position, if we are 
given another amount of moneys to hand out we are simply going 
to have to have staff to do that. With the first grant that 
came out, we pulled people from--I say ``we''--U.S. Fire 
Administration--we pulled people from everywhere. Everybody 
rallied around and we put an effort out to get these moneys 
out, and we did it in an extremely timely manner. I am very 
proud of the staff and what they did.
    You cannot keep doing it that way, because everything else 
will shut down. We just literally shut everything else down to 
get the grants out. That was the right thing to do at the time, 
but if this is going to be an ongoing process like I suspect it 
is going to be, we are going to have to set aside a percentage 
of those grants funds to provide staffing. If we are going to 
do the grants, we are going to do it right, we want to do it 
efficient. We want to make sure that what we do is purchasing 
the right thing that is going to have an impact nationwide on 
the safety of our public.
    Senator Wyden. Now, as you know there is a lot of 
discussion in the Congress about hiring a substantial number of 
new firefighters, a discussion of perhaps 70,000 new 
firefighters. We would like to know if you think a program like 
this is needed, do you have the resources to administer it, and 
what you think of the suggestion that the Department of Labor 
would run it?
    Mr. Paulison. I have heard the rumors about the request for 
75,000 firefighters, but I have not seen it in writing yet. My 
concern is simply the same as what we had with the COPS 
program. We are hiring people with 30-year careers and we are 
talking about potentially short-term money, and who is going to 
pay for those firefighters after the third, fourth, fifth, or 
tenth year. It may not be insurmountable, but that is my main 
concern.
    I have not discussed it with the Director, but off the top 
of my head I would say that the Department of Labor may not be 
a bad place to manage that program if it becomes law.
    Senator Wyden. The only other question I have for you, Mr. 
Paulison, deals with preparedness coordination. As you know, 
the General Accounting Office has been making recommendations 
for several years now to reduce duplication and improve 
coordination of the assistance programs to the first 
responders. They cite in their most recent report that there is 
still some confusion about these various kinds of programs.
    What in your view could be done to respond to what the GAO 
has been talking about with respect to confusion among federal 
assistance programs?
    Mr. Paulison. If we are talking about a particular group of 
people like firefighters, I think it needs to be centralized in 
one place, along with training also, so we have one focus, one 
agency, one group to go to for questions and answers. The fire 
chiefs that I talk to struggle with: I cannot get a straight 
answer out of anybody; I call this person, they say, well, that 
is not ours, you need to call so- and-so.
    They need somebody to go to, one-stop shopping, to coin a 
phrase, where they can go. So I say if we are going to continue 
doing these, let us put it in one place and decide where that 
is going to be, and whoever it is, give them the resources to 
manage it.
    Senator Wyden. That might be too logical for the federal 
government. It sure makes sense to me.
    Both of you have given excellent presentations. As you can 
tell, it is particularly hectic right now with so many 
colleagues being pulled to other meetings. I have got to get 
over to the Intelligence Committee myself. I am very anxious to 
get you confirmed. Chairman Hollings is, as well, given the 
fact that we are already asking you for projects and to do 
things about standards for firefighter equipment and get into 
whole areas you never thought you would even be asked about, 
like Bayh-Dole, Dr. Bement. We have got to get you all 
credentialed and approved, and I am confident that the Senate 
is going to do that.
    On behalf of the Committee, we are very pleased that two 
distinguished individuals such as yourselves are interested and 
willing to serve our country right now. We always give you a 
chance to have the last word on these matters. Is there 
anything else that you would like to add?
    Dr. Bement. Well, if I may, Senator, I would like to 
acknowledge the presence here of Deputy Secretary Bodman, Sam 
Bodman. I have had in my lifetime a very unusual privilege of 
always moving from one career to another, but working under a 
person that I could like, that I could respect, and I could 
learn from. My record is now intact. I have had many good 
exchanges with Phil Bond. I can assure you that there is going 
to be a very close and seamless relationship between NIST and 
the Technology Administration.
    I look upon it as a real honor to serve with these people.
    Senator Wyden. Well, I appreciate your singling people in 
the Department out. They have been very cooperative, starting 
with Secretary Evans and the other individuals that you have 
talked about today, and I think that is a very appropriate one 
to quit on because that is what it is going to take, that kind 
of bipartisan effort maximize the success of our policies in an 
area that obviously is in the forefront of the public's 
attention.
    Mr. Paulison, anything you would like to add further?
    Mr. Paulison. I just want to say that, based on what 
happened September 11th, I have never been so proud to be a 
firefighter and I am never so ready to serve my country, and I 
appreciate your support. Thank you.
    Senator Wyden. That is a great way to wrap up. We are very 
proud of what all of those in your profession have done to help 
our country when very often it is not at all expected and do it 
extraordinarily well.
    Mr. Paulison. Thank you.
    Senator Wyden. We look forward to working with you.
    With that, the Committee is adjourned.
    [Whereupon, at 3:34 p.m., the Committee was adjourned.]
                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John McCain to 
                          Arden L. Bement, Jr.
    Question 1. Given the focus from the Secretary of Commerce and the 
Congress on ATP, what effects has this attention or controversy had on 
the other programs at NIST?
    Answer. I believe that the current close review of the ATP by the 
Secretary of Commerce is in the interest of establishing a stronger 
ATP, which will be more sustainable and serve the nation even better. 
The Committee has been a strong supporter of NIST, and I believe NIST 
programs are highly effective and productive. I do not believe the 
attention or controversy around ATP has had an adverse effect on the 
other programs at NIST. In fact, during the years of debate on ATP, 
NIST's programs have made notable progress. The laboratories' mission 
is enhanced by new laboratory facilities in Gaithersburg: The Advanced 
Chemical Sciences Laboratory was completed recently and the Advanced 
Measurement Laboratory is now under construction. The Manufacturing 
Extension Partnership has increased its reach and service to thousands 
more small manufacturers, and the Baldrige National Quality Program has 
expanded its scope to health care and education. I am grateful for the 
Committee's continued championship of NISTs programs and, if confirmed, 
will work with the Committee to further strengthen these programs.
    Question 2. Can you comment on the role of technical standards and 
the ability of US companies to compete on the International level?
    Answer. Internationally recognized technical standards for products 
and services are key to promoting free trade that strengthens the US 
economy and benefits the world. Some nations or regions have tried to 
unilaterally set standards to favor one nation or region over others, 
often disadvantaging US companies. NIST has worked closely with US 
standards developing organizations to develop a national standards 
strategy that promotes US economic interests and global free trade. If 
confirmed, I will make it a priority to work with American industry, 
standards organizations, and Congress to make the implementation of our 
national standards strategy even more timely and effective for the 
benefit of US companies.
    Question 3. In information you have provided to the Committee on 
your nomination, you stated that changes to the authorizing act for the 
Advanced Technology Program was a critical need from a legislative 
standpoint. Why is this a critical need for NIST? When can the 
Committee expect the results of the Secretary's review of the program?
    Answer. I believe NIST, the Department of Commerce, and Congress 
have an excellent opportunity to make the ATP even stronger and more 
effective, especially at the earlier stages of the innovation process. 
ATP has been successful for more than 10 years in promoting development 
of new technologies with broad benefits to the nation. But global 
competition for high-technology markets is even more intense today than 
in the 1980s when ATP legislation was first written. I believe that 
updating ATP legislation to reflect these changes will help to ensure 
that the United States maintains a strong environment for innovation. 
If confirmed, I will work with the Secretary and the Committee to 
further optimize the ATP.
    Question 4. Over the years we have heard about the merits of the 
Baldridge program and the criteria used to select the winner of the 
annual awards given by the President. Do you have any plans to 
implement the Baldridge criteria within the laboratory?
    Answer. The Baldrige process is an excellent way for companies and 
organizations to assess their strengths and weaknesses, to develop 
plans to improve organizational performance, and to monitor progress. 
If confirmed, I will use the Baldrige criteria and other proven 
management tools to ensure that NIST continually improves its 
performance and impact.
    Question 5. In recent testimony before the Commerce Committee, Dr. 
John Marburger, the President's Science Advisor, highlighted the need 
for more diversity at all ranks of the science and engineering 
workforce. Do you feel that this need exists at NIST and if so, what 
are your specific plans to address this problem?
    Answer. In an increasingly diverse America, attracting and 
retaining top scientific talent is a challenge for NIST and all federal 
agencies. The challenge will grow in the future, and I believe NIST and 
all agencies must work harder and smarter to recruit a more diverse 
workforce. The NIST postdoctoral program has been highly successful in 
bringing the best young scientists to NIST to work with leading NIST 
scientists, including NIST's Nobel laureates. I am also learning about 
other successful programs, such as NIST's Summer Undergraduate Research 
Fellowship Program, that place a diverse mix of undergraduate students 
in NIST laboratories to stimulate their interest in science careers. 
These programs are helping NIST recruit from a more diverse pool. If 
confirmed, I will strengthen these training and recruitment programs 
and work with the Committee to find additional ways to ensure NIST 
continues to have the world-class, diverse scientific staff it needs to 
fulfill its mission.
    Question 6. During the 105th Congress, the Congress established the 
Teacher Science and Technology Enhancement Program which would assist 
teachers in their understanding of science and its relationship to 
commerce. Can you comment on how this program may assist you in 
addressing some the priorities that you have announced for the 
laboratory?
    Answer. There is widespread national support for strengthening our 
educational systems. The Teacher Science and Technology Enhancement 
Program (TSTEP) focuses on improving science and technology education 
to help prepare our children for a world increasingly driven by 
technology. I believe that there is much that NIST can do to help 
teachers motivate students in learning scientific and technological 
principles. I also believe that all agencies should contribute as they 
are able to fulfill this national priority. A concerted effort could 
only serve to enhance the technical knowledge and capabilities of the 
United States' workforce upon which NIST and all our technical 
organizations must increasingly rely. If confirmed, I look forward to 
working with the Committee to determine how NIST can best contribute to 
national education priorities in science and technology.
    Question 7. What can we do to improve the acceptability of building 
and fire codes by state and local jurisdictions?
    Answer. NIST supports improved building and fire codes in three 
ways: NIST operates the nation's leading building and fire research 
laboratory to identify ways in which codes can improve safety and 
building performance; NIST works with industry, professional, research, 
and government organizations across the nation to promote better 
building practices; and NIST works closely with national standards 
organizations and model building code organizations to develop and 
implement standards. Over time, more state and local regulators have 
been adopting national standards and model building codes, which needs 
to be amplified. If confirmed, I will work with the Committee and our 
wide range of stakeholders across the nation to accelerate the 
development and adoption of more up-to-date and effective building and 
fire codes.
    Question 8. Many Americans continue to be worried about the 
reliability of voting systems, especially after the newspaper stories 
and recent commission reports about last year's elections. How can NIST 
play a role in ensuring the accuracy and reliability of voting systems?
    Answer. NIST is prepared to contribute to improving voting systems. 
Two areas where NIST could make key contributions include working with 
the private sector to develop performance standards and test methods 
for various voting technologies, and working with local, state, and 
federal officials and the private sector to develop standards for the 
reliable operation of voting systems. There may be other roles for NIST 
as well. If confirmed, I look forward to working with the Committee to 
determine the best roles for NIST in improving voting systems.
    Question 9. In your answers to the Committee's pre-hearing 
questions, you stated that one of your principal goals will be to 
``find more effective means to communicate with industry and government 
decision makers'' about NIST's role in the Nation's industrial and 
technological developments. In your opinion, what are the shortcomings 
to NIST's current efforts, and how do you intend to resolve them?
    Answer. NIST is well-connected with its constituents in industry, 
academia, and government at the operational level. However, because 
NIST's contributions are infrastructural in nature, NIST's essential 
roles and its successes in fulfilling these roles are not necessarily 
recognized by top decision makers. With technology and the economic 
environments changing rapidly I believe NIST needs to strengthen and 
elevate its ties to all its stakeholders in order to continue to have 
the greatest impact. If confirmed, I will make it a top priority to 
work with the Technology Administration and the Department of Commerce 
to improve communications with top industry and government decision 
makers to find additional ways to build on NIST's successful 
collaborations and to ensure that NIST does an even better job in 
meeting the needs of all of its constituents.
                                 ______
                                 
    Response to Written Question Submitted by Hon. George Allen to 
                          Arden L. Bement, Jr.
    Question 1. Dr. Bement, there is some discussion in Congress about 
the need for a single standard for digital copyright-protection 
technology. Some have suggested that if industry groups cannot agree on 
a standard within a specified time period, then NIST should be required 
to develop the standard. Would you give us your thoughts about Congress 
mandating that NIST develop and enforce a single standard for digital 
copyright-protection technology?
    Answer. NIST has historically worked very well with industry, 
academia, and government to develop voluntary consensus standards. 
NIST's key contributions to standards development have been in 
providing unbiased technical advice and facilitating agreement within 
standards developing organizations, consortia, and other groups. I 
believe NIST can best serve the nation by continuing in these roles as 
an objective, neutral partner that brings technical competence and good 
working relationships to the table, not as a regulator of technical 
activity. If confirmed, I will work with the Committee to determine the 
best roles for NIST in digital copyright and other standards issues.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           R. David Paulison
    Question 1. In recent testimony before the Committee, several 
representatives from the firefighting community talked about the need 
for standards for new equipment. Do you believe this to be the case 
also, especially in light of the increased purchasing of new equipment 
via the Assistance to Firefighters program?
    Answer. National standards for fire equipment have existed in part 
for many years. OSHA and NIOSH have standards for equipment. There are 
also consensus standards that have been developed by the National Fire 
Protection Association. There does need to be a set of nationally 
accepted standards for equipment that leverages new technology and 
increases firefighter safety. The Assistance to Firefighters Grant 
Program has indeed shown an increase in equipment purchases. In general 
the equipment being purchased meets or exceeds the existing standards.
    Question 2. How responsive is the federal research and development 
program to the needs of firefighters? Do we need to develop a needs 
assessment process to ensure better response?
    Answer. USFA has for many years had a very successful partnership 
with NIST on research and development which has yielded significant 
firefighter safety and response programs and concepts to include:
    <bullet> Research on Structural Collapse Prediction Technology
    <bullet> Research on Enhancement of Performance of Personal Alert 
Safety Systems for firefighters
    <bullet> Evaluation of Thermal Imaging Systems Technology
    <bullet> Research of Fire Suppression Effectiveness of Hose Streams
    <bullet> Evaluation of Structural Ventilation Techniques using 
Computational Fluid Dynamics
    <bullet> Technology Transfer--Integration of Research Results in 
NFA Training Programs
    <bullet> Recreation of Fire Burn Patterns with Computer Simulations
    <bullet> Thermal Protective Properties of Firefighter's Personal 
Protective Equipment All of these programs are ongoing and have had a 
direct impact on firefighter safety at emergency scenes. We need to 
look to additional research and to develop new technologies to assist 
in first responder tracking systems that provide information on actual 
location as well as vital health signs. We need to continue to develop 
technology and research being done by other agencies such as DOD, NASA, 
and CDC to name a few.
    Question 3. You mentioned in your written statement that the 
federal assistance should be supplemental and should be directed to the 
areas and programs in greatest need. How can we ensure that the funds 
in the Assistance to Firefighters Grant Program are supplemental and 
not a primary funding source?
    Answer. Local and state support for the fire services is an age-old 
problem. Many local governments support their fire departments and many 
do not, all for varying reasons. Local officials have to make. 
difficult funding decisions. What is true in all cases is that local 
government has the primary responsibility for public health and safety. 
They need to be encouraged to not just maintain their fire departments 
but also find additional ways to support them. States also have an 
important role to play.
    Through grant programs, bulk purchasing under state contract and 
other creative funding and resource acquisition programs, fire 
departments and local governments can work to improve their 
capabilities. It is critical that all levels of government work 
together on these efforts. The fire services also need to acknowledge 
that they need to come to the table as well. Many local fire 
departments are volunteer and do not wish a lot of involvement with 
local governments. That must change and the fire services must be 
willing to accept some accountability to local governments in exchange 
for assistance.
    Federal efforts should supplement state and local governments in 
areas that are beyond their capability; that are not technically 
feasible; or that are financially cost prohibitive. Such federal 
assistance, however, should only be made available after there is a 
complete understanding of the local responsibility and those federal 
dollars should not supplant existing or future local financial support.
    Question 4. You have mentioned that the U.S. Fire Administration 
has some very specific goals for the next 5 years. They include the 
reducing the loss of life from fire by 25 percent for children under 
14; reduce by 25 percent the loss of life by fire of Americans over 65 
years old or older; and to reduce the number of firefighters' death by 
25 percent. As the President's nominee for Administrator of the Fire 
Administration, do you agree with these goals? If so, what would be 
your strategy for achieving these goals?
    Answer. I agree completely with these goals and will work to 
aggressively implement them. USFA last year undertook a major campaign 
to address the fire safety needs of older Americans, and this year they 
are undertaking a campaign to assist children. We have developed and 
should continue to foster the relationships built with the Safe Kids 
Campaign and the American Association of Retired Person. We have 
ongoing programs with the National Fire Protection Association on fire 
prevention.
    The Assistance to Firefighters Grant Program also provided many 
fire prevention grants to national and statewide fire service 
organizations and burn centers. All of those initiatives are addressing 
USFA's target audiences. I pledge to continue and where possible 
increase those efforts.
    Firefighter fatalities are the closest to my heart. Even the loss 
of one firefighter is too many. This year's loses are staggering as a 
result of September 11, but we still loose far to many firefighters 
each year. Almost one every 3 days, is lost. We need to address the 
root causes and they are heart attacks and vehicle accidents. Both of 
these are preventable. Health and safety programs in fire departments 
must be robust and likely include prescreening health exams and 
physical fitness programs. Vehicle operator programs exist through the 
National Fire Academy and the state and local training entities. The 
entire training system and the fire services leadership need to,put a 
new emphasis on driver training and safety.
    On both of these specific issues we will work with the CDC, DOT and 
our partners at the state and local level to develop programs and 
initiative to reduce these types of fatalities.
    Question 5. The U.S. Fire Administration started working on 
terrorism training programs, response guides and outreach several years 
ago. Based upon the events of September 11, do you believe this work 
proved to be effective?
    Answer. I do think the programs USFA has developed have been very 
helpful and effective. These have set the baseline and need to be 
expanded. We need to look at making this training available to as wide 
a fire and emergency service audience as possible. We must also 
continue to work in partnership with other agencies and the Office of 
Homeland Security to develop even more advanced programs.
    Question 6. You mentioned in an article you authored on the 
Hurricane Andrew disaster ``ironically, all the mutual aid we received 
was also the worst thing that happened to us. It came too fast and was 
not coordinated.'' Can you elaborate on that point and how the Fire 
Administration may be able to help resolve this problem in future 
disasters?
    Answer. Incident management must address coordination issues with 
the Federal Response Plan. Self-deployment of agencies and assets 
outside the plan and the Information Management System (IMS) request 
creates difficulty in coordination and strains the time and attention 
of legitimate responders. Standardized state and regional mutual/
automatic aid plans would be helpful. Also, attention and training must 
include focus on the problems with maintenance of long-term 
``campaign'' emergency operations that will go on for extended periods 
of time.
    We need to address the area of scene security and safety. The World 
Trade Center terrorist attacks clearly demonstrated the need to explore 
a national credentialing system for first responders. Such a system 
could provide identification of the responder, the responder's 
qualifications, and any operations limitations and expiration dates. 
State and local agencies and educational/training institutions should 
serve as the certifying authorities for qualifications. The 
certification ``card'' could then serve as a passport for admission to 
secured work sites. This should cut down on the ``freelancing'' we saw 
on scene in New York and result in improved security.
    We need to consider additional training in vehicle/logistics/
staging security, personnel security, scene security, control and 
accountability of teams and resources as well as issues of deployment, 
sustainability, and recall.
    Question 7. In a hearing that this Committee held in October on the 
Fire Service, Arlington County Fire Chief, Ed Plaugher recommended that 
the fire services be made part of the National Threat and Warning 
System. Do you believe that this recommendation is helpful to our 
Nation's firefighters?
    Answer. Yes I do and would look forward to working with the Office 
of Homeland Security, the FEMA Office of National Preparedness and the 
Justice Department to develop just such a program.
    Question 8. In your opinion, how important is research and 
development to the role of USFA. Do you believe that USFA has adequate 
resources to fund research into new fire prevention and control 
technology?
    Answer. Research and development is a critical part of the USFA 
mission. There are many aspects of firefighter safety, equipment, new 
technology, etc. that need to be studied and developed. While USFA has 
enjoyed good support in this area for the past few years, we still 
cannot undertake all of the research that is requested of us. For USFA 
to take on additional projects, adequate staffing and funding must be 
part of the equation.
    Question 9. The recent tragedy in New York and heightened need in 
many jurisdictions for fire fighters to deal with bioterrorist 
emergencies have created greater demand for firefighters across the 
Nation. What can the USFA do to help states and local jurisdictions 
meet this demand?
    Answer. In Florida we found that almost 99 percent of the calls 
were from residents having concerns over receiving mail to their houses 
that they did not recognize. Most of this mail was bulk mail 
advertising that usually did not have a return address. Public 
education is the key to cut down on the shear number of calls to the 
local first responders. Public education can be handled in cooperation 
with the postal service and the Office of Homeland Security the public 
can be briefed on what specifically to look for. However, the local 
fire departments must have the training, education and tools to respond 
to a real threat; USFA will work to provide additional appropriate 
first responder information on responding to potential bioterror 
events.
    Question 10a. The USFA manages the National Fire Incident Reporting 
System to collect, analyze, and disseminate data and information on 
fire incidents to state and local jurisdictions. Do you believe that 
the state and local governments are adequately involved in the National 
Fire Incident Reporting System?
    Answer. No. While many local and state governments have been part 
of this process, we still do not have even 50 percent of the fire 
departments reporting to the voluntary National Fire Incident Reporting 
System. We are aggressively looking at ways to expand state and local 
participation through the use of technology and outreach.
    Question 10b. What role can Congress play in ensuring better state 
and local participation?
    Answer. It is important that we find additional methods of training 
and education of local and state officials regarding the need for 
cooperation. Any action Congress takes should consider incentives to 
local governments to participate but not mandating participation 
without providing adequate resources to assist local and state 
governments in implementing this program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. George Allen to 
                           R. David Paulison
    Question 1. One of the major obstacles to an effective response to 
a major national catastrophe is the inability of fire departments from 
different jurisdictions to communicate with each other. In the 
Washington area, the local fire, police, and EMS services have set up a 
pilot project called the Capital Wireless Integrated Network (CapWIN) 
program to resolve this issue. Do you have any thoughts on how the USFA 
can play a role in resolving these interoperability problems?
    Answer. Communications is a major problem for all emergency 
services at large scale incidents especially ones that involve multiple 
jurisdictions. At the United States Fire Administration (USFA) we agree 
that this issue needs to be addressed. It must start with a 
comprehensive study of the systems in use, the availability of radio 
``spectrum'' for emergency services and how a national system can be 
developed as a ``backbone'' to support state and local efforts. 
Fortunately, a lot of this research work has begun or been completed. 
It is our understanding that Senator Jeffords has introduced 
legislation that would call for such studies to be undertaken and I 
look forward to working with you, the Congress and FEMA Director 
Allbaugh to assist in that effort.
    Question 2a. Another major concern expressed at our October hearing 
was that there is not one federal point of contact for fire services to 
communicate with in a national emergency. Based on your experiences 
during Hurricane Andrew and other emergencies, do you believe that this 
is an accurate concern?
    Answer. The federal point of contact for the fire services is and 
needs to be the United States Fire Administration and FEMA. It is 
important to remember that the flow of information and coordination 
must be local to state to federal. Fire and emergency services need to 
build or expand close working relationships with local and state 
emergency managers. Ultimately FEMA and USFA will work through that 
system to provide support.
    Question 2b. As head of the USFA, what will you do to resolve this 
concern?
    Answer. As the head of USFA I will work closely with Director 
Allbaugh and the FEMA regions to build a strong cooperative and 
supportive relationship between the fire services and the emergency 
management community at the state and local level. Fire and emergency 
services at the local level also need to reach out themselves to build 
or expand close working relationships with local and state emergency 
managers. Ultimately FEMA and USFA will work through that system to 
provide support.
    Question 3. You mentioned in your written statement that federal 
assistance should be supplemental and should be directed to the areas 
and programs in greatest need. As you are aware, the problems for 
communities, which house federal installations, place an extra burden 
on their emergency personnel. Local fire, rescue and police departments 
are the first to respond to any emergency at federal installations. 
Arlington County was the scene commander at the Pentagon, with 
significant support from all other area fire, police and rescue 
departments. These same local emergency response departments will again 
be the primary responders to any attacks at critical federal 
facilities, whether it is the Pentagon, or the CIA, or the National 
Reconnaissance Office in Fairfax, or other major federal offices 
throughout Northern Virginia. Do you feel that a region such as this 
demonstrates the appropriate level of need?
    Answer. Emergency services are the primary responders to 
emergencies of all kinds. Incidents on federal property bring 
additional burdens to those response activities. It is critical that 
the federal government, specifically the agencies that reside in those 
communities, work closely with local responders to pre-plan for those 
facilities, coordinate the response to an incident and the federal 
government needs to provide resources for that response. Several 
programs exist to support local response on federal property to include 
a reimbursement program for fire departments that fight fires on 
federally owned property. Under Presidential disaster declarations, 
first response organizations are also eligible to apply for direct 
assistance through the Public Assistance Program.
    Question 4. You mentioned in an article you authored on the 
Hurricane Andrew disaster ``ironically, all the mutual aid we received 
was also the worst thing that happened to us. It came too fast and was 
not coordinated.'' Can you elaborate on that point and how the Fire 
Administration may be able to help resolve this coordination problem in 
future disasters?
    Answer. Incident management must address coordination issues with 
the Federal Response Plan. Self-deployment of agencies and assets 
outside the plan and the Information Management System request creates 
difficulty in coordination and strains the time and attention of 
legitimate responders. Standardized State and regional mutual/automatic 
aid plans would be helpful. Also, attention and training must include 
focus on the problems with maintenance of long-term ``campaign'' 
emergency operations that will go on for extended periods of time.
    We need to address the area of scene security and safety. The World 
Trade Center terrorist attacks clearly demonstrated the need to explore 
a national credentialing system for first responders. Such a system 
could provide identification of the responder, the responder's 
qualifications, and any operations limitations and expiration dates. 
State and local agencies and educationalltraining institutions should 
serve as the certifying authorities for qualifications. The 
certification ``card'' could then serve as a passport for admission to 
secured work sites. This should cut down on the ``freelancing'' we saw 
on scene in New York and result in improved security.
    We need to consider additional training in vehicle/logistics/
staging security, personnel security, scene security, control and 
accountability of teams and resources as well as issues of deployment, 
sustainability, and recall. Mutual aid units must also come prepared to 
be self contained and sustain themselves for two or 3 days without 
depending on the local department.
    Question 5. In a situation like what we experienced on September 11 
evacuation of the city is extremely hampered by our overcrowded streets 
and highways and limited transit system. To what extent does this 
congestion cripple the ability of first responders and is there 
anything that you see the federal government or USFA can do to help the 
situation?
    Answer. It is important that local evacuation plans be developed to 
maximize the ability to get the public out of harm's way and at the 
same time provide access for emergency services. Most communities that 
have hurricane or nuclear power plant planning efforts have already 
taken this issue into account. USFA will work with FEMA and the states 
to provide the lessons learned and the planning models that are 
available to those communities and states that need them.
                               __________
                               U.S. Department of Commerce,
                                    Washington, DC., March 1, 2002.
Hon. Ron Wyden,
U.S. Senate,
Washington, DC.
    Dear Senator Wyden: At my confirmation hearing, you asked that I 
submit a written response to the Committee identifying actions by the 
National Institute of Standards and Technology (NIST) and the 
Administration that could streamline and improve the processes for 
technology transfer in the context of the Bayh-Dole Act. After 
consulting with Under Secretary of Commerce for Technology Phillip 
Bond, I am happy to submit our joint response to you.
    This letter includes three sections: (I) brief contextual 
information about the Bayh-Dole Act, (II) description of the major 
roles and responsibilities of the Department of Commerce's Technology 
Administration, particularly of two of its component bureaus: the 
Office of Technology Policy and NIST; and (III) actions to implement 
improved technology transfer at NIST and to identify areas for possible 
improvements in federal technology transfer within the current 
statutory framework.\1\
---------------------------------------------------------------------------
    \1\ The recommendations included in this letter propose areas for 
clarification or administrative/regulatory changes that could be made 
to improve the efficiency and effectiveness of federal technology 
transfer at NIST within the context of the Bayh-Dole Act and related 
legislation, as you requested at my confirmation hearing. They do not 
address other potential areas of modification, such as the recoupment 
of funds from companies that develop commercially successful products 
based on government-funded inventions. Such revisions would require 
legislative action.
---------------------------------------------------------------------------
          i. background and experience with the bayh-dole act 
                        and related legislation
    The fundamental concern that drove The Patent and Trademark Act 
Amendments of 1980 (``Bayh-Dole Act'') was that federally funded 
innovations were not sufficiently utilized and commercialized by 
industry for public benefit.\2\ The General Accounting Office and 
others have attributed this lack of commercialization of federal 
research to two key factors, both of which the Bayh-Dole legislation 
attempted to address: (1) the government normally retained title to 
inventions made with federal funds, and (2) government agencies usually 
licensed federally funded technologies on a nonexclusive basis, thereby 
discouraging companies from making significant investments in product 
development.
---------------------------------------------------------------------------
    \2\ According to the General Accounting Office (GAO): ``At the time 
[of Bayh-Dole], fewer than 5 percent of the 28,000 patents being held 
by federal agencies had been licensed, compared with 25 percent to 30 
percent of the small number of federal patents for which the government 
had allowed companies to retain title to the invention'' (GAO/RCED-99-
126).
---------------------------------------------------------------------------
    There has been debate about the degree to which the Bayh-Dole Act 
and related legislation and Executive Orders have affected technology 
transfer between federal laboratories, American businesses, and our 
nation's research universities. However, to date there has been little 
systematic research that conclusively identifies direct causal 
relationships between legislative and policy changes, the technology 
transfer activities of the many actors involved, and other factors. 
What is known is that the annual number of patents issued to 
universities has increased dramatically since passage of Bayh-Dole,\3\ 
particularly in the life sciences, and that government laboratories 
developed new mechanisms to facilitate technology transfer in response 
to Bayh-Dole and other legislation. Under these authorities, federal 
agencies established offices to manage technology transfer activities 
and to monitor the protection and licensing of intellectual property; 
developed programs and procedures to license government-owned 
inventions to the private sector; entered into thousands of Cooperative 
Research and Development Agreements (CRADAs) and other types of 
technology transfer arrangements with the private sector; and now 
report annually to Congress on their technology transfer activities. By 
and large, the primary purpose of these activities is to maximize the 
commercialization of government-owned inventions for public benefit.
---------------------------------------------------------------------------
    \3\ The Association of University Technology Managers (AUTM) 
reports that fewer than 250 U.S. patents were issucd annually to 
universities prior to Bayh-Dole implementation. Since 1993, surveys 
conductcd by AUTM have shown an average of more than 1,600 patents 
annually, and greater than 2,000 in recent years, issued to 
universities. In addition, AUTM's survey results show a 198 percent 
increase in new U.S. patent applications and a 133 percent increase in 
licenses for U.S. universities from 1991-1999. However, AUTM figures 
include funding from all sources to universities--not just federal 
funds. [See http://www.autm.net/]
---------------------------------------------------------------------------
        ii. technology administration roles and responsibilities
    The Department of Commerce's Technology Administration has specific 
roles and responsibilities in the area of technology transfer, 
particularly through two of its component bureaus: the Office of 
Technology Policy and NIST. These functions are detailed below.
Technology Administration, Office of Technology Policy
    The Office of Technology Policy (OTP) plays a significant role in 
the development, implementation, and analysis of technology transfer 
policies and practices, in close consultation with Congress and other 
agencies. As the Administration's focal point for discussion of 
technology transfer issues, OTP also coordinates and works closely with 
the interagency Joint Working Group on Technology Transfer (JWGTT). 
This group comprises technology transfer practitioners and coordinators 
from all federal agencies with extramural research programs. With OTP 
leadership, the JWGTT discusses a wide range of agency activities and 
issues related to technology transfer, recommends policies and 
implementation strategies related to technology transfer, and 
coordinates the submission of data for congressional reports.
    OTP's statutory responsibilities include:
    <bullet> Assisting agencies in the implementation of relevant laws, 
including the Bayh-Dole Act and the Stevenson-Wydler Act;
    <bullet> Developing policies and issuing regulations governing the 
ownership of patents arising from federally funded research and the 
licensing of federally owned inventions (see implementing arrangements 
in 37 CFR Parts 401 and 404); and
    <bullet> Compiling and analyzing information and reporting on 
agency implementation of technology transfer mechanisms such CRADAs and 
patent licenses.
    Through FY 2000, the Office of Technology Policy was responsible 
for producing a Biennial Report to Congress on the technology transfer 
activities of all federal agencies (May 2000 report enclosed).
    Requirements in the Technology Transfer Commercialization Act of 
2000 (TTCA) shift this reporting responsibility to an annual basis.
    Beginning in the current fiscal year and based on the TTCA, each 
agency with a federal laboratory must produce with its budget 
submission an annual report on its technology transfer activities and 
outcomes. In addition, the Secretary of Commerce is required to prepare 
a governmentwide summary report, based on agency submissions. The 
Office of Technology Policy is responsible for: (1) coordinating the 
submission of the Department of Commerce's annual technology transfer 
report, and (2) producing the Secretary's summary report to the 
President and the Congress each year after the President's budget 
request for the next fiscal year becomes public.
    In the role of coordinator and leader of the JWGTT, OTP has crafted 
and obtained Administration support for a number of technology 
transfer-related provisions and legislation, including the recently 
passed Technology Transfer Commercialization Act of 2000. As the 
Administration considers ways to improve the efficiency and speed of 
technology transfer, it is important to consult the technology transfer 
practitioners throughout the government, as well as their counterparts 
in industry and universities. OTP's experience and relationship with 
the JWGTT has been, and will no doubt continue to be, a strong asset in 
organizing such consultations, identifying recommendations, and 
prioritizing appropriate administrative or regulatory action.
Technology Administration, NIST
    NIST's mission is to develop and promote measurement, standards, 
and technology to enhance productivity, facilitate trade, and improve 
the quality of life. The NIST laboratories develop and disseminate 
measurement techniques, reference data, test methods, standards, and 
other infrastructural technologies and service that support U.S. 
industry, scientific research, and the activities of many federal 
agencies. NIST works directly with industry partners (and consortia), 
universities, associations, and other government agencies, and utilizes 
diverse mechanisms to transfer the knowledge and technologies that 
result from its laboratory research.
    In keeping with its mission, NIST's technology transfer activities 
are focused on pursuing the most efficient and effective path to 
utilization and commercialization, which often necessitates the broad 
dissemination of research results, rather than the creation of patents 
and associated licenses. NIST's policies and mechanisms for technology 
transfer are further explained in the attachments to this letter.
    Activities carried out by NIST related to technology transfer 
include:
    <bullet> NIST's Office of Technology Partnerships is the focal 
point of NIST's formal technology transfer activities.
    <bullet> Pursuant to the Technology Transfer Commercialization Act 
of 2000, NIST will report on its technology transfer activities 
annually to the Technology Administration's Office of Technology 
Policy. This information will be incorporated into a Department-wide 
report. A copy of NIST's fiscal year 2001 submission is attached, for 
your information.
    <bullet> NIST works closely with the Office of Technology Policy on 
other technology transfer-related issues, through participation in the 
interagency Joint Working Group on Technology Transfer (JWGTT), the 
Federal Laboratory Consortium for Technology Transfer (FLC), and 
informal consultation.
      iii. opportunities for improving federal technology transfer
    During my first few months as Director of NIST, I have engaged 
members of my staff in discussions about technology transfer issues, 
and they have identified areas in which NIST has experienced 
difficulties in licensing or otherwise making available government-
owned technologies, Based on these discussions and input received from 
Under Secretary Bond and others, highlighted below are several 
opportunities for streamlining or improving the processes for 
technology transfer at NIST.
    1. Modifications of licensing regulations, particularly with regard 
to definitional issues. Identified below are two examples of specific 
areas where additional guidance could improve the effectiveness of 
NIST's technology transfer processes by clarifying ambiguities.
    <bullet> ``Substantially manufactured'' requirement. While 
commendable in its intent to promote domestic manufacturing, the 
statutory requirement that inventions or products made using a 
government-owned invention must be ``manufactured substantially in the 
United States'' has multiple interpretations, which can impede NIST's 
ability to license federal technology to certain domestic and foreign 
entities for commercialization. NIST has struggled to determine what 
``manufactured substantially'' means. Further, the multinational nature 
of many modern businesses makes this requirement difficult to 
understand and implement.
    <bullet> ``Reasonable and necessary'' requirement. When granting an 
exclusive or partially exclusive license to an applicant, an agency 
must find that such a grant is ``reasonable and necessary'' for the 
commercialization of the technology. Finding that an exclusive license 
is ``necessary,'' in the strictest sense of the word, for the 
commercialization of a technology can hamper NIST's ability to 
expeditiously license a technology. The word ``necessary,'' seems to 
preclude NIST from granting; an exclusive license in any situation 
where at least one nonexclusive license application is received.
    In both of these cases (and likely others), additional regulatory 
guidance as to the definition of certain terms or phrases could resolve 
some of the confusion that NIST staff has encountered.
    2. Regulatory modifications of appeal rights. Appeal rights 
provided to parties whose license applications have been denied by a 
government agency can, when fully exercised significantly delay the 
granting of an exclusive or partially exclusive license. Current 
licensing regulations do not impose time limits on the appeals process, 
nor do they limit the number of allowable application refilings. There 
is a need to identify ways to preserve the right of appeal of an 
aggrieved party, while at the same time preserving the ability of an 
agency to proceed with the granting of an exclusive license. This could 
be accomplished, in part, by imposing time limits on appeals, 
refilings, and decisions. This is one issue that OTP has agreed to 
raise for discussion in the JWGTT.
    3. Improved reporting and analysis of technology transfer tools 
utilized by federal agencies. As mentioned above, efforts already are 
underway, as a result of the Technology Transfer Commercialization Act 
of 2000 (TTCA), to improve the annual reporting procedures of agencies. 
This new reporting framework provides an opportunity for agencies to 
identify the efficacy of their technology transfer programs, and 
provide information demonstrating how the technology transfer tools 
employed support to each agency's unique mission.
    For NIST, technology transfer activities are focused on pursuing 
the most efficient and effective path to utilization and 
commercialization, which often necessitates the broad dissemination of 
research results, rather than the creation of patents and associated 
licenses. To reflect the diverse ways in which NIST transfers 
technology and knowledge to its customers, NIST's fiscal year 2001 
report provides data for Cooperative Research and Development 
Agreements (CRADAs), invention disclosures, licenses, acrd license 
income, but also for other important tools utilized by the 
laboratories, such as Standard Reference Materials available, technical 
publications produced, items calibrated, and guest researcher 
collaborations. Please refer also to the attachments.
    In a broader context, there may be other types of data that can 
assist NIST and other agencies in evaluating the success of their 
technology transfer programs--For example, GAO noted in a 1999 report 
that, ``no data are available on the extent to which the government is 
using its royalty-free licenses to federally sponsored inventions.'' 
This may be another important improvement that can be discussed with 
agencies in the JWGTT process.
    The ideas noted above describe opportunities for improvement that, 
if addressed, will improve the efficiency and effectiveness of federal 
technology transfer at NIST within the context of the Bayh-Dole Act and 
related legislation. Additional opportunities for the Administration to 
identify and prioritize governmentwide improvements in technology 
transfer procedures through regulation or statute will be considered by 
the JWGTT. Under Secretary Bond and I appreciate the opportunity to 
share these ideas with you, and we hope you find them constructive. We 
welcome further discussions with you on this important topic.
            Sincerely,
                                           Phillip J. Bond,
                        Under Secretary of Commerce for Technology.

                                      Arden L. Bement, Jr.,
                                                     NIST Director.


                                <greek-d>

</pre></body></html>
